United States
Department
of Agriculture

Office of
Inspector
General

No. 61
May 2009




                 Office of Inspector General

                 Semiannual Report to Congress
                 First Half 2009
Key OIG Accomplishments in This Reporting Period
RESULTS IN KEY CATEGORIES

SUMMARY OF AUDIT ACTIVITIES
Reports Issued
      Number of Reports	                                                                           22
      Number of Recommendations	                                                                  133
Management Decisions Made
      Number of Reports	                                                                           22
      Number of Recommendations	                                                                  237
Total Dollar Impact (Millions) of Management-Decided Reports	                                  $112.9
      Questioned/Unsupported Costs	                                                              $3.6
      Funds To Be Put to Better Use	                                                           $109.3
Summary of Investigative Activities
Reports Issued	                                                                                   141
Impact of Investigations
      Indictments	                                                                                228
      Convictions	                                                                                225
      Arrests	                                                                                    103
Total Dollar Impact (Millions)	                                                                 $47.4
Administrative Sanctions	                                                                          74

OIG MAJOR USDA MANAGEMENT CHALLENGES (August 2008)
1) Interagency Communications, Coordination, and Program Integration Need Improvement
Related material can be found on pages 11 and 16.
2) Implementation of Strong, Integrated Internal Control Systems Still Needed
Related material can be found on pages 6, 9, 12, and 15-17.
3) Continuing Improvements Needed in Information Technology (IT) Security
Related material can be found on page 21.
4) Departmental Efforts and Initiatives in Homeland Security Need To Be Maintained
Related material can be found on page 4.
5) Material Weaknesses Continue To Persist in Civil Rights Control Structure and Environment
No work was reported during this period.
6) USDA Needs To Develop a Proactive, Integrated Strategy To Assist American Producers To Meet the Global Trade Challenge
Related material can be found on page 3.
7) Better Forest Service Management and Community Action Needed To Improve the Health of the National Forests and Reduce
the Cost of Fighting Fires
Related material can be found on pages 25-26.
8) Improved Controls Needed for Food Safety Inspection Systems
Related material can be found on pages 1-2 and 4.
9) Implementation of Renewable Energy Programs at USDA
No work was reported during this period.
Message From the Inspector General
I am pleased to provide the Semiannual Report to Congress for the Office of Inspector General (OIG), U.S. Department of
Agriculture (USDA), for the 6-month period ending March 31, 2009. This is the first Semiannual Report that we have issued to
the new Congress and the new Administration. We look forward to working with our stakeholders to provide effective oversight to
USDA programs, particularly the new economic recovery programs funded under the American Recovery and Reinvestment Act
of 2009 (ARRA). Immediately upon passage of the ARRA, we began a number of proactive measures to review ARRA funding,
including reviewing open recommendations from audits of agency programs receiving such funding, working with the Chief
Information Officer and the Chief Financial Officer to ensure accurate ARRA reporting, and reviewing agency Recovery Act Plans.
Some of our current work on specific recovery program projects is described in the “Ongoing and Planned Work” sections of this
report.
This report also highlights the most significant OIG activities completed during the period. During this reporting period, we
conducted successful investigations and audits that led to 103 arrests, 225 convictions, $47.4 million in recoveries and restitutions,
202 program improvement recommendations, and $112.9 million in financial recommendations. Narrative descriptions of our
completed work are presented in the body of this report, organized under the goals set forth in the OIG Strategic Plan for fiscal
years (FY) 2007-2012, as shown below. Some of our most significant work completed in the last 6 months includes:


σσ    Safety, Security, and Public Health – Prompted by Congressional and public concerns expressed after the release
      of videos showing inhumane treatment of animals at a California slaughterhouse, OIG conducted a review both
      of oversight at this plant and at similar plants across the country. In response to our recommendations, the Food
      Safety and Inspection Service agreed to reassess the inhumane handling risks associated with such establishments and
      strengthen its pre-slaughter inspection processes. Our investigative work resulted in sentencings in other cases involving
      uninspected meat and poultry products, illegal importation of plant pests, and international smuggling of orchids.
σσ    Integrity of Benefits – Our investigations involving the Supplemental Nutrition Assistance Program and other feeding
      programs—as well as conversion of mortgaged farm collateral, payment limitations schemes, tobacco and other fraud, and
      broadband scams—produced significant prison sentences and monetary recoveries totaling millions of dollars. In addition,
      Congress requested that OIG revisit the rural broadband programs to determine whether the Rural Utilities Service (RUS) had
      taken sufficient corrective action in response to our previous recommendations. Our audit work found that RUS continues
      to make loans to broadband providers in areas with preexisting service, sometimes in close proximity to large urban areas.
σσ    Management Improvement Initiatives – Our audit of claims from policies reinsured under the Federal Crop Insurance
      Program resulting from the 2005 hurricanes in Florida found that errors by just one approved insurance provider led to more
      than $16 million in erroneous payments. Our audit work also found that the National Agricultural Statistics Service’s weekly
      published average peanut prices are unreliable because they may not be complete, cannot be verified, and do not reflect prevailing
      weekly market values. In addition, the USDA FY 2008 consolidated financial statements received an unqualified opinion. Our
      investigations included ones involving embezzlement, witness tampering, and unlawfully buying and selling prescription drugs.
σσ    Stewardship Over Natural Resources – Our investigation found that 18 participants submitted fraudulent soil test results
      to unlawfully receive compensation from the Conservation Security Program, resulting in administrative recoveries totaling
      $628,591, as well as Civil False Claims Act settlements.
In many ways, 2009 has ushered in an era of great challenge for the Nation, for USDA, and for those of us in the oversight
community. We look forward to working closely with Secretary Vilsack, Deputy Secretary Merrigan, and the new USDA
management team to ensure that USDA programs are delivered effectively and with integrity.




Phyllis K. Fong
Inspector General
Contents
 Safety, Security, and Public Health. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1

 Integrity of Benefits. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5

 Management Improvement Initiatives . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 15

 Stewardship of Natural Resources. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 24

 Gauging the Impact of OIG . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 27

 Abbreviations of Organizations. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 40
                                                                    Goal 1




Safety, Security, and Public Health
OIG Strategic Goal 1:
                                                                         In the first half of fiscal year (FY) 2009, we devoted 20 percent
Strengthen USDA’s ability to implement safety and
                                                                         of our total direct resources to Goal 1, with 96.3 percent of
security measures to protect the public health as                        these resources assigned to critical/high impact work. A total
well as agricultural and Departmental resources.                         of 76.5 percent of our audit recommendations under Goal
To help USDA and the American people meet critical                       1 resulted in management decision within 1 year, and
challenges in safety, security, and public health, OIG provides          66.7 percent of our investigative cases resulted in criminal, civil,
independent and professional audits and investigations in these          or administrative action. OIG issued three audit reports under
areas. Our work addresses such issues as the ongoing challenges          Goal 1 during this reporting period. OIG’s investigations under
of agricultural inspection activities, safety of the food supply,        Goal 1 yielded 101 indictments, 56 convictions, and about
and homeland security.                                                   $1.7 million in monetary results during this reporting period.




 Management Challenges Addressed UNDER GOAL 1
 σσ     Interagency Communications, Coordination, and Program Integration Need Improvement (also under Goals 2, 3, and 4)
 σσ     Continuing Improvements Needed in Information Technology (IT) Security (also under Goal 3)
 σσ     Departmental Efforts and Initiatives in Homeland Security Need To Be Maintained
 σσ     USDA Needs To Develop a Proactive, Integrated Strategy To Assist American
        Producers To Meet the Global Trade Challenge (also under Goal 3)
 σσ     Better Forest Service Management and Community Action Needed To Improve the Health of the
        National Forests and Reduce the Cost of Fighting Fires (also under Goals 3 and 4)
 σσ     Improved Controls Needed for Food Safety Inspection Systems




EXAMPLES OF AUDIT AND INVESTIGATIVE                                      controls were effective. We found deliberate actions by
WORK FOR GOAL 1                                                          slaughterhouse personnel to bypass required inspections, as
                                                                         well as noncompliance with required inspection procedures
Food Safety and Inspection Service (FSIS) Controls                       by FSIS in-plant staff. FSIS management controls did not
Did Not Detect or Prevent the Inhumane Handling                          detect and/or prevent these incidents. We reviewed 10 other
of Cattle                                                                cull establishments and found shortcomings, but nothing
In January 2008, the Humane Society of the United States                 indicated that unsuitable animals were passed for slaughter; we
publicly released videos that documented the egregious abuse             therefore concluded that there was no systemic failure of the
of cattle awaiting slaughter at a California slaughterhouse,             inspection processes/system as designed by FSIS. However, we
which could have led to unsafe meat entering the food supply.            did find that FSIS controls could be strengthened to provide
On February 17, 2008, the slaughterhouse voluntarily recalled            oversight of the inspection processes and to demonstrate the
approximately 143 million pounds of raw and frozen beef                  sufficiency and competency of FSIS’ personnel resources. FSIS
products, the largest recall to date. The videos led Congress,           agreed to reassess the inhumane handling risks associated with
USDA, and the public to question how such events could                   cull establishments; establish a process to analyze data for
have occurred at a slaughter establishment under inspection              variances in both establishment and inspector performance
by FSIS and whether these events were isolated or systemic.              that could require followup; develop a supportable, risk-
OIG initiated an audit to determine whether FSIS inspection              based methodology for determining inspection resources and




                                                                         USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half          1
                                                                      Goal 1




establishing an appropriate supervisory structure; develop a               In December 2008, a man in Mohnton, Pennsylvania, pled
structured training and development program for both its                   guilty to a 1-count felony for illegally importing 25 exotic plant
inspection and management resources; and strengthen its pre-               pests into the United States. In April 2009, he was sentenced
slaughter inspection processes. (Audit Report No. 24601-7-KC,              in Federal court to 36 months of probation and fined $5,025.
Evaluation of FSIS Management Controls Over Pre-Slaughter                  The judge also ordered the beetles to be turned over to the
Activities)                                                                Smithsonian Institution, which had written to the court to
                                                                           request them. The other subject, a Chinese national who was a
Owners of a California Corporation Sentenced for                           college biology major living in Arlington, Virginia, pled guilty
Selling Uninspected Meat and Poultry Products                              to importing plant pests into the United States. He said he
In November 2008, in Federal court in the Central District                 liked the colorful, exotic beetles and wanted to breed them. In
of California, a California corporation was fined $25,000                  October 2008, he was sentenced to 12 months of probation
and ordered to serve 3 years of probation. The three owners                and ordered to pay a $2,000 fine.
were each fined $5,000, and one owner was also ordered to
                                                                           These investigations were conducted jointly with the U.S.
serve 3 years of probation. The owners of the corporation had
                                                                           Department of Homeland Security (DHS), the U.S. Postal
produced and sold meat and poultry raviolis to the public,
                                                                           Inspection Service, and the Animal and Plant Health
without Federal inspection, in violation of the Federal Meat
                                                                           Inspection Service (APHIS).
Inspection Act (FMIA) and Poultry Products Inspection Act
(PPIA). After being notified of their previous FMIA and PPIA               Missouri Company Sentenced for Falsifying Poultry
violations, from September 2001 to October 2002, the owners                Shipping Certificates
sold more than $121,000 worth of meat and poultry raviolis.                A joint investigation conducted by OIG and FSIS revealed
No illnesses were reported.                                                that, for a period of at least 10 years, a Monett, Missouri,
Pennsylvania and Virginia Individuals Convicted for                        meat and poultry company had replaced packaging labels on
Illegally Importing Asian Beetles                                          poultry products and falsified poultry shipping certificates on
                                                                           export items to circumvent international quality guidelines.
In two unrelated investigations, the U.S. Postal Service
                                                                           In October 2008, the company pled guilty to one count of
intercepted packages sent from Japan and Taiwan, each
                                                                           making a false statement on a poultry shipper’s certificate.
containing dozens of live beetles found only in Asian countries.
                                                                           A Federal court in Missouri ordered the company to pay a
Some of the beetles were as large as a baseball and, due to their
                                                                           $250,000 fine and $77,000 in restitution.
uniqueness, required identification by scientists specializing in
beetles. It was determined that the beetles, if released, could            Texas APHIS Employees and Fumigator Sentenced for
cause considerable damage to native plants and agriculture in              Conspiring To Allow Infested Agricultural Products To
the United States.                                                         Enter the United States
                                                                           From approximately June 2005 through April 2008, three
                                                                           APHIS Plant Protection and Quarantine (PPQ) officers
                                                                           assigned to Laredo, Texas, conspired to permit agricultural
                                                                           products that were infested with a plant pest to enter into
                                                                           the United States. The PPQ officers falsified fumigation
                                                                           documentation and made false overtime claims. In some
                                                                           instances, the fumigations did not occur, and in others the
                                                                           fumigations were not conducted properly because the correct
                                                                           amount of fumigant was not used. In November 2008, in
                                                                           the Southern District of Texas, Laredo, one of the APHIS
                                                                           PPQ officers and the fumigator, respectively, were sentenced
These Asian beetles were illegally imported into the United States.        to serve 5 months in prison to be followed by 5 months of
OIG photo.




2     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half
                                                                  Goal 1




home confinement and 36 months of supervised release; and              USDA Needs To Monitor the Importation of Transgenic
12 months in prison followed by 36 months of supervised                Organisms Developed Outside the U.S. Regulatory
release. They were also ordered to pay $19,770 and $39,541,            System
respectively, in restitution to USDA and the various owners
                                                                       USDA has no controls to identify transgenic organisms
of agricultural products that were not fumigated. On
                                                                       (genetically engineered (GE) plants and animals) that are not
October 1, 2008, another former PPQ officer was sentenced
                                                                       declared during importation. To date, USDA has not needed
to serve 6 months of home confinement. A third APHIS PPQ
                                                                       such controls because most transgenic organisms have been
officer took his own life shortly after he was indicted. This
                                                                       developed under the U.S. regulatory system. However, because
investigation was conducted jointly with the Federal Bureau of
                                                                       other nations have recently begun to create and export such
Investigation (FBI).
                                                                       organisms, we concluded that USDA will need to monitor their
Florida Orchid Dealer Sentenced in International                       development and importation into the United States in order
Smuggling Operation                                                    to mitigate environmental, agricultural, and commercial risks.
This joint investigation by OIG, the Department of                     In response to our audit recommendations, USDA generally
the Interior’s U.S. Fish and Wildlife Service, and DHS’                agreed to implement a mechanism to monitor transgenic
Immigration and Customs Enforcement (ICE) involved                     plants and animals developed outside the United States and
the import of approximately 1,400 orchid plants, which                 a corresponding import control system. (Audit Report No.
are regulated by the Convention on International Trade of              50601-17-Te, USDA Controls Over Importation of Transgenic
Endangered Species of Flora and Fauna (CITES). In July                 Plants and Animals)
2008, a Ft. Lauderdale, Florida, orchid dealer was charged             USDA Needs an Overall Strategy To Enhance Trade of
in the Southern District of Florida with one count of falsely          GE Agricultural Commodities
identifying plants intended for import or received from a
                                                                       We found that USDA promotes biotechnology but has not
foreign country, in violation of the Lacey Act. The plants
                                                                       developed an overall strategy to address trade challenges specific
were falsely identified on the CITES document as artificially
                                                                       to GE U.S. agricultural commodities. Given trade barriers that
propagated, when in fact the plants were collected in the wild.
                                                                       can create a volatile international market for these commodities,
In October 2008, the orchid dealer was sentenced to
                                                                       we determined that such a strategy would help stabilize U.S.
18 months of probation.
                                                                       trade—both softening market downturns and increasing
                                                                       exports in favorable markets. Further, an overall strategy would
                                                                       focus USDA’s efforts to open new markets. USDA generally
                                                                       agreed to implement a coordinated, comprehensive strategy to
                                                                       promote exporting U.S. GE commodities and appointed an
                                                                       official to implement our recommendations. (Audit Report No.
                                                                       50601-14-Te, USDA’s Role in the Export of GE Agricultural
                                                                       Commodities)




                                                                       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half        3
                                                                      Goal 1




                                                                                     response to an Agroterrorism event. In addition,
    GOVERNMENTWIDE ACTIVITIES – GOAL 1                                               ERT participates in numerous multiagency
                                                                                     scenario-based exercises throughout the country
    Review of Legislation, Regulations, Directives,                                  to enhance its operational experience.
    and Memoranda                                                              ONGOING AND PLANNED REVIEWS FOR GOAL 1
    σσ     Guidance for Small and Very Small Establishments on
                                                                               Topics that will be covered in ongoing or planned reviews
           Sampling Beef Products for Escherichia coli O157:H7 (E.
                                                                               under Goal 1 include:
           coli O157:H7). OIG reviewed a draft entitled Guidance
           for Small and Very Small Establishments on Sampling                 σσ    oversight of the National Organic Program
           Beef Products for E. coli O157:H7, dated August 12,                       (Agricultural Marketing Service (AMS)),
           2008. We generally concurred with the draft guidance,               σσ    followup on purchase specifications
           which provided small and very small establishments                        for ground beef (AMS),
           with information to develop sampling plans for
           monitoring controls designed to prevent                             σσ    National Residue Program for cattle (FSIS),
           E. coli O157:H7-contaminated product from leaving                   σσ    oversight of the recall by a California-
           the establishment. However, we commented that the                         based meat-packing company (FSIS),
           recommended samples appear to be too infrequent                     σσ    evaluation of Food Emergency Response
           to verify the effectiveness of control systems. FSIS                      Network capabilities (FSIS),
           recommended that establishments maintain records of
                                                                               σσ    evaluation of the changes to the Salmonella
           test results over time; therefore, frequency of positive
                                                                                     Verification Testing Program (FSIS),
           tests over time should be a factor in determining
           sampling rates. Currently, FSIS’ recommendations                    σσ    oversight of designated qualified persons
           for sampling emphasize only the correlation between                       enforcing the Horse Protection Act (APHIS),
           establishment size and sampling frequency.                          σσ    APHIS controls over pilot suitability (APHIS),
    Participation on Committees, Working Groups,                               σσ    licensing of animal exhibitors (APHIS),
    and Task Forces                                                            σσ    controls over animal import centers (APHIS),
    σσ     An OIG Special Agent is assigned full time to the                   σσ    animal care inspections of dealers (APHIS) ,
           FBI’s National Joint Terrorism Task Force (NJTTF).
           The agent attends NJTTF threat briefings and                        σσ    USDA controls over compliance with beef
           provides a variety of products related to terrorist                       export requirements (AMS and FSIS),
           intelligence to OIG and other agencies and offices                  σσ    implementation of flood control dams rehabilitation
           within the Department. OIG Special Agents                                 (Natural Resources Conservation Service (NRCS)),
           nationwide are assigned to the FBI’s local JTTFs.                   σσ    USDA controls over GE animal and insect
           OIG’s participation on the JTTFs has provided an                          research (Agricultural Research Service (ARS),
           excellent conduit for sharing critical law enforcement                    Cooperative State Research, Education, and
           intelligence and has served to help broaden the                           Extension Service (CSREES), and APHIS),
           knowledge of the FBI and other law enforcement
                                                                               σσ    review of Forest Service (FS)
           agencies about conducting criminal investigations
                                                                                     firefighting succession plans,
           with a connection to the food and agriculture sector.
                                                                               σσ    	followup on prior firefighter safety audits (FS), and
    σσ     OIG’s Emergency Response Team (ERT) is
           participating on the FBI’s Joint Interagency                        σσ    Forest Legacy Program – appraisal process (FS).
           Agroterrorism Working Group. The overall goal                       The findings and recommendations from these efforts will
           of the working group is to develop protocols and                    be covered in future Semiannual Reports as the relevant
           processes among the FBI, APHIS, and OIG that
                                                                               audits and investigations are completed.
           are needed to facilitate a coordinated interagency




4        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half
                                                                Goal 2




Integrity of Benefits
OIG Strategic Goal 2:                                                implementation of agreed-to audit recommendations relating to
                                                                     programs receiving ARRA funding. Phase 1 of our investigative
Reduce program vulnerabilities and strengthen                        efforts entailed outreach and enhancing fraud awareness among
program integrity in the delivery of benefits to                     USDA employees and clients through increasing the number
program participants.                                                of fraud awareness briefings that we conduct and publishing
                                                                     literature and distributing hotline posters on our investiga-
OIG conducts audits and investigations to ensure or restore
                                                                     tive mission and avenues for reporting fraud related to ARRA
integrity in the various benefit and entitlement programs of
                                                                     funding. Phase 1 for both our audit and investigative efforts
USDA, including a variety of programs that provide payments
                                                                     is focused on proactive measures. Our ARRA oversight plan
directly and indirectly to individuals or entities. The size of
                                                                     includes proactive, short-term, and long-term work, and can be
these programs is daunting: the Supplemental Nutrition As-
                                                                     found on our Web site at http://www.usda.gov/oig/recovery/
sistance Program (SNAP) alone accounts for approximately
                                                                     OIGSTIMULUSPLAN.pdf. We will report the results of our
$40 billion in benefits annually, while well over $20 billion
                                                                     ARRA work in the next Semiannual Report.
annually is spent on USDA farm programs. Intended beneficia-
ries of these programs include the working poor, hurricane and
                                                                     In the first half of FY 2009, we devoted 40 percent of our total
other disaster victims, and schoolchildren, as well as farmers
                                                                     direct resources to Goal 2, with 89.6 percent of these resources
and producers. These programs support nutrition, farm produc-
                                                                     assigned to critical/high-impact work. A total of 92.8 per-
tion, and rural development.
                                                                     cent of our audit recommendations under Goal 2 resulted in
                                                                     management decision within 1 year, and 83.9 percent of our
USDA has received $28 billion in funding under the American
                                                                     investigative cases resulted in criminal, civil, or administrative
Recovery and Reinvestment Act of 2009 (ARRA), enacted in
                                                                     action. OIG issued seven audit reports under Goal 2 during
February 2009, in a number of areas, including farm loans, wa-
                                                                     this reporting period. OIG investigations under Goal 2 yielded
tershed programs, supplemental nutrition assistance, wildland
                                                                     118 indictments, 152 convictions, and about $44.9 million in
fire management, and several rural development programs such
                                                                     monetary results during the reporting period.
as rural housing, rural business, water and waste disposal, and
broadband. ARRA also provided OIG with $22.5 million (to
remain available until September 30, 2013) for “oversight and            Management Challenges Addresed Under Goal 2
audit of programs, grants, and activities funded by this Act and         σσ   Interagency Communications, Coordination,
administered by the Department of Agriculture.” OIG began                     and Program Integration Need Improvement
working immediately with USDA and the IG community, as                        (also under Goals 1, 3, and 4)
well as the Government Accountability Office (GAO) and the               σσ   Implementation of Strong, Integrated Internal
Recovery Accountability and Transparency Board (RAT Board),                   Control Systems Still Needed (also under Goal 3)
to carry out oversight responsibilities. For our audit oversight,
Phase 1 began with OIG having reviewed USDA agencies’




                                                                     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half         5
                                                                   Goal 2




EXAMPLES OF AUDIT AND INVESTIGATIVE WORK FOR                            in our September 2005 report within certain timeframes. Its
GOAL 2                                                                  decision to wait for the release of the 2008 Farm Bill meant
                                                                        that the corrective actions had not been completed at the time
Broadband Loan and Loan Guarantee Program                               of our review. (Audit Report No. 09601-8-Te, RUS Broadband
Since Congress directed RUS to establish the rural broadband            Loan and Loan Guarantee Program)
programs in 2001, it has obligated $1.35 billion to broadband           Corporate Chief Executive Officer (CEO) Pleads Guilty
providers to help foster economic growth by delivering
                                                                        to $3.2 Million in Wireless Broadband Scam
broadband service to rural communities. An OIG report issued
in 2005 disclosed irregularities, totaling $340 million out of the      In March 2002, the Rural Utilities Service (RUS) approved
$578 million we reviewed, in the approval and servicing of the          a $3.295 million loan to a Parkersburg, West Virginia,
broadband loan and grant programs.                                      corporation to construct a fixed wireless broadband system to
                                                                        serve areas in Ohio and West Virginia. RUS loan funds were
Congress requested that OIG revisit the rural broadband                 fraudulently disbursed based on phony invoices submitted
programs to determine whether RUS had taken sufficient                  for payment and were also paid to an Ohio company where
corrective action in response to our previous recommendations           former principals of the West Virginia corporation became
and requested that we answer several additional questions. In           employed after submitting their resignations. The matter was
response to Congress’ additional questions, we found that RUS           investigated jointly by OIG, Internal Revenue Service (IRS)-
tracked the number of households served but not the number              Criminal Investigation (CI) and the West Virginia Legislature,
of previously unserved households. Of the 37 applications               Commission on Special Investigations.
approved since our previous report, we found that 34 involved
providers proposing to service communities that already had             In August 2008, the corporation’s former CEO and former
service. We also determined that, since 2001, 11 broadband              Chief Operating Officer (COO), as well as the Ohio company
loans totaling $48 million were in default as of June 3, 2008, a        and its Chief Financial Officer (CFO), were charged in the
3.6 percent default rate.                                               Southern District of West Virginia with mail fraud, theft or
                                                                        bribery concerning programs receiving Federal funds, money
In addition, we found that RUS has not fully implemented                laundering, and aiding and abetting. In September 2008, a
corrective action in response to 8 of the 14 recommendations            representative of the Ohio company and the former COO of
from our 2005 report. For example, the agency continues                 the West Virginia corporation pled guilty to money laundering
to make loans to providers in areas with preexisting service,           conspiracy. In February 2009, the former CEO of the West
sometimes in close proximity to large urban areas. RUS                  Virginia corporation also pled guilty to money laundering
officials stated that they had not resolved the outstanding             conspiracy. Sentencing is scheduled for spring 2009. Charges
recommendations because they were waiting for passage of                remain pending against the CFO of the Ohio company.
the 2008 Farm Bill. OIG maintains that RUS did not need to
wait for new legislation to implement most of our 2005 report           Texas Technology Company and Two Corporate
recommendations.                                                        Officers Ordered To Pay $429,159 in Restitution for
                                                                        Fraud in Broadband Internet Grants
RUS did not believe that our current report was an accurate
portrayal of the performance of the broadband program. RUS              This investigation, referred by OIG Audit after its review of
stated that it followed the statutory requirements that it was          RUS’ Broadband Internet Grant Program, was conducted by
bound to administer. However, we found weaknesses in RUS’               OIG and the FBI. The investigation determined that an Austin,
administration of the broadband program. For example, RUS               Texas, company submitted fraudulent claims for equipment
approved more than $103 million of broadband loans even                 purchases and services on its rural broadband Internet project.
though the applications were incomplete. We also found that             In December 2007, a Federal court in Lubbock, Texas,
RUS does not always serve those communities most in need of             sentenced two corporate officers to 60 months of probation
broadband. RUS agreed to implement changes recommended                  and ordered restitution jointly and severally of $429,159 for
                                                                        one count of theft of public money and aiding and abetting. In




6     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half
                                                                   Goal 2




February 2009, the same Federal court sentenced the company             Development (RD) later received $100,009 from the sale of the
to 60 months of probation and ordered restitution in the same           house.
amount to be paid jointly and severally for one count of theft
                                                                        Multiagency Investigation Leads to Successful
of public money and aiding and abetting. The agency also
                                                                        Prosecution for RD Housing Fraud and Unlawfully
debarred the company and its owner from Federal Government
participation for 10 years.
                                                                        Obtained Supplemental Nutrition Assistance Program
                                                                        (SNAP) Benefits
Two Tennessee Businessmen Ordered To Pay                                This investigation conducted by OIG, Social Security
$4.5 Million in Restitution for Bank Fraud, Wire                        Administration OIG, Environmental Protection Agency OIG,
Fraud, and Money Laundering                                             and the New Mexico Attorney General’s office determined
A joint investigation conducted by OIG, IRS-CI, the FBI, and            that a man in Gallup, New Mexico, presented false identity
the Tennessee Valley Authority’s (TVA) OIG disclosed that two           documents belonging to a deceased Puerto Rican national to
Dyersburg, Tennessee, businessmen, who were the primary                 unlawfully obtain RD housing assistance and SNAP benefits
owners of a Hickman, Kentucky, corporation, fraudulently                totaling approximately $26,000. In January 2009, the subject
received a $5 million bank loan, for the purchase of a building         was sentenced in State court to 72 months in prison, followed
and business operating funds, that had been guaranteed by               by 60 months of probation, and ordered to pay restitution
the Rural Business-Cooperative Service and fraudulently                 of $26,000 for four counts of fraud, identity theft, unlawful
obtained an additional $500,000 direct loan from TVA. These             dealing in Federal food coupons, and perjury. The execution
two individuals provided a listing of collateral to secure the          of the sentence was suspended in lieu of the subject being
USDA-guaranteed loan in Kentucky, even though several items             immediately deported from the United States. Illegal re-entry to
of this collateral were already under obligation for an existing        the United States would result in the subject being incarcerated
USDA-guaranteed loan for another business they owned in                 for the remainder of his sentence.
Tennessee. The fraudulent TVA loan was obtained through a
                                                                        SNAP and Related Offenses Result in Significant
similar scheme involving the collateral. A portion of these loan
proceeds was later used to pay off non-related debts owed by
                                                                        Prison Sentences and Monetary Recoveries
these two businessmen. In February 2009, a Federal court in             σσ    Our ongoing investigative efforts to combat large-scale
Kentucky sentenced the businessmen to 30 months and                           SNAP benefit fraud trafficking in Chicago, Illinois,
27 months of imprisonment, respectively, for bank fraud, wire                 determined that a store owner and clerk, who were not
                                                                              authorized by the Food and Nutrition Service (FNS)
fraud and money laundering, and ordered them jointly liable
                                                                              to participate in the program, conspired with at least
for restitution of $4.1 million regarding the USDA-guaranteed
                                                                              five other retailers from March to September 2005 to
loan and $420,000 restitution to TVA.                                         defraud the program of approximately $6.3 million.
Minnesota Women Sentenced Following Rural                                     The scheme involved relocating EBT terminals from
Housing (RH) Program Fraud                                                    authorized stores to an unauthorized store where SNAP
                                                                              recipients would sell their benefits. The subjects of our
In July 2008, a Dodge Center, Minnesota, woman and her                        investigation were ultimately indicted on wire fraud and
mother each were sentenced to serve 20 years of probation                     criminal forfeiture charges at the U. S. District Court,
and perform 100 hours and 75 hours of community service,                      Northern District of Illinois. The store owner pled guilty as
respectively, following their guilty pleas in State court to felony           charged and was sentenced in March 2009 to 42 months
theft by false representation. The daughter had convinced her                 of incarceration, 3 years of supervised release, and $3.5
elderly mother to obtain $127,000 in RH Program assistance to                 million in restitution. The store clerk also pled guilty and
purchase a house, because the daughter was not able to obtain                 was sentenced to 41 months of incarceration, 3 years of
                                                                              supervised release, and $2.8 million in restitution. This
RH assistance on her own. The daughter and her boyfriend,
                                                                              investigation was conducted with the U.S. Secret Service.
rather than the mother, ultimately lived in the house. Rural
                                                                        σσ    In another Chicago case, a Federal court in Illinois
                                                                              sentenced a retail grocery store owner in October




                                                                        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half          7
                                                                         Goal 2




     2008 to 55 months in prison, followed by 36 months                            The employee, a fourth defendant in this investigation,
     of probation, and ordered him to pay $535,000 in                              engaged in EBT trafficking with an undercover agent from
     restitution and forfeit $535,000 in assets for 10 counts                      October 2005 to June 2006. As previously reported, three
     of wire fraud involving SNAP benefits. The OIG                                other individuals were also charged with SNAP benefits
     investigation revealed that the store owner was involved                      trafficking in this case, including the owner of the store,
     in a SNAP benefits trafficking scheme that resulted                           who fled the country after he had agreed to forfeit assets
     in the loss to USDA of more than $740,000.                                    and plead guilty to SNAP trafficking charges. Another
                                                                                   employee pled guilty to SNAP charges and was sentenced
σσ   An OIG investigation in Miami, Florida, revealed that two
                                                                                   to 57 months in Federal prison and was ordered to pay
     store owners and the sister of one of the owners illegally
                                                                                   restitution of $2.7 million. The third individual was charged
     exchanged SNAP benefits for cash at an estimated loss
                                                                                   with SNAP trafficking, wire fraud, and conspiracy violations
     to USDA of $3.3 million. The three individuals were
                                                                                   but also fled the country before OIG could arrest her.
     charged with conspiracy to commit Electronic Benefit
     Transfer (EBT) fraud/wire fraud and money laundering.                    σσ   A series of investigations of SNAP benefit recipient fraud,
     In October 2008, a Federal court in the Southern District                     conducted throughout the State of Montana under the
     of Florida sentenced one of the store owners to 37 months                     oversight of the U.S. Attorney’s Office in an effort to
     of imprisonment and ordered him to pay $1.7 million in                        combat SNAP fraud, have led to the filing of Federal charges
     restitution to USDA. In December 2008, the other store                        against eight individuals, including a Montana Department
     owner was sentenced to 37 months of imprisonment and                          of Public Health and Human Services (MDPHHS)
     paid $135,000 directly to the court. The owner was further                    employee. The estimated fraud from the investigations
     ordered to pay restitution to USDA of $1.465 million                          is approximately $115,000. Those persons investigated
     jointly and severally with his sister. In December 2008,                      were charged with making false statements to MDPHHS
     the sister was sentenced to 24 months of imprisonment.                        concerning their income and employment during various
                                                                                   periods between approximately 2002 and 2007. To date,
σσ   A retail grocery store employee in Syracuse, New York, was
                                                                                   four of the individuals have pled guilty and are awaiting
     sentenced in July 2008 in Federal court to 27 months in
                                                                                   sentencing, and additional guilty pleas are anticipated. The
     prison, followed by 36 months of probation, and ordered
                                                                                   investigations were conducted jointly with MDPHHS.
     to pay $400,000 in restitution for his role in a SNAP
     benefits trafficking scheme. The investigation disclosed                 σσ   In January 2009, a couple was sentenced to serve a
     that, in 2004 and 2005, the employee and the store owner                      cumulative total of 15 months in prison and ordered to
     illegally redeemed more than $1.2 million in SNAP benefits.                   pay a cumulative total in excess of $2,600 in fines by the
     From January 1, 2004, through July 21, 2006, the police                       Multnomah County Circuit Court in Portland, Oregon, as
     were called to the store 187 times for various complaints                     a result of their felony convictions relating to the delivery
     including weapons, assault, and drug violations. As a result                  of methamphetamine, disposing of SNAP benefits, and
     of the criminal investigation, the store was forfeited to the                 child neglect. From September 2008 to November 2008,
     Federal Government and transferred to the city of Syracuse.                   the couple conducted several purchases of the Oregon
     The city razed the store and plans to erect new homes and                     Trail EBT cards, in exchange for methamphetamine, from
     a small park. The arrangements for the new homes and                          undercover officers. In November 2008, on the day the
     park required the collaboration of the Federal court system,                  couple was arrested by OIG agents and officers from the
     city officials, and the local community, who worked to                        Gresham, Oregon, Police Department, the agents and
     create a new plan for the neighborhood. The investigation                     officers found that the couple had left a 3-year-old child
     was conducted with IRS and the Syracuse Police                                unattended at their residence while they conducted another
     Department. Sentencing of the store owner is pending.                         methamphetamine-for-EBT card transaction with the
                                                                                   undercover officer. A subsequent search of the residence
σσ   In new action on a case that was previously reported in the first
                                                                                   recovered methamphetamine, cocaine, and EBT cards.
     half of FY 2008, in February 2009, a store employee of a Los
     Angeles, California, grocery store was sentenced by a Federal
     court in the Central District of California to serve 3 years
     in prison and ordered to pay $238,000 in restitution.




8    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half
                                                                    Goal 2




Child and Adult Care Food Program (CACFP) Sponsor                              Southern District of New York, the company agreed to pay
in Ohio Used Program Funds To Offset Negative                                  $3,557,474 to the Government. In addition, the company
                                                                               made reimbursements totaling $8,477,506 to the school
Cashflow
                                                                               districts and other customers that had been defrauded.
We found that a recurring negative cashflow experienced                  σσ    In September 2008, the Providence, Rhode Island,
by a nonprofit entity that sponsored multiple programs in                      Recreation Department agreed to repay $853,112 to
Ohio, including CACFP, jeopardized the integrity of CACFP                      FNS after an independent audit and OIG investigation
funds. Over a 17-month period from October 2006 through                        found that the Recreation Department had inflated the
February 2008, the sponsor’s cash account, which commingled                    number of meals served to eligible recipients in order to
funds from all sources, was in a negative position 25 times.                   receive higher reimbursements. The city of Providence
The account remained negative for an average of 8 days                         agreed that significant overclaims were made and arranged
during those 25 instances, with an average negative balance                    to have appropriate corrective actions taken to improve
of $24,547. Because of this, the sponsor used more than                        its program, including changing its administrative
$195,000 in CACFP funds to pay nonprogram expenses,                            structure and strengthening its internal controls.
increased an existing line of credit to $150,000 by improperly           σσ    In January 2009, a University of California (UC) Davis
using CACFP funds as collateral, obtained $85,000 in                           employee was sentenced by a Federal court in the Eastern
operating loans from unallowable sources, and performed                        District of California to serve 12 months and 1 day
                                                                               in prison and ordered to pay $128,681 in restitution.
accounting functions that did not adhere to Generally Accepted
                                                                               OIG—working with UC Davis police, UC Davis internal
Accounting Principles (GAAP). The sponsor also claimed
                                                                               audit, and the FBI—conducted a search warrant, obtained
CACFP reimbursement for unallowable costs of $12,436. In
                                                                               evidence, and determined that the employee purchased
addition, we found that the Ohio State agency responsible for                  personal property such as computers, iPods, stereos,
administering CACFP in Ohio had failed to provide the results                  cameras, televisions, camera recorders, and similar items
of a monitoring review to the sponsor and had not ensured that                 with grant monies received from FNS’ Food Stamp
more than $22,000 in overclaims had been collected.                            Nutrition Education Program. The items were later sold,
                                                                               gifted to family members, or kept for personal use.
FNS agreed to instruct the State agency to require the sponsor
to establish one bank account for CACFP funds only, exclude              Successful Prosecutions Achieved in Several Farm
CACFP funds as collateral for the line of credit, restrict the           Service Agency (FSA) Conversion Cases
source of loans to allowable lenders, ensure GAAP are adhered            σσ    A Ridgeview, South Dakota, producer was sentenced in
to, repay the $12,436 improper cost reimbursement, and                         March 2009 to serve 1 year of probation and was ordered
ensure that the State agency collects the $22,136 for meal                     to pay restitution of $357,560 following his November
overclaims from the sponsor identified during the monitoring                   2008 guilty plea for conversion of mortgaged property.
review. (Audit Report No. 27601-37-Ch, Monitoring of                           The OIG investigation revealed that, in 2004, the
CACFP Sponsor, Collaborative Network, Toledo, Ohio)                            producer converted the proceeds from the sale of 72 head
                                                                               of mortgaged cattle, hay, and crops pledged as security
Feeding Program Investigations Yield Substantial                               to FSA. The producer sold the cattle in his daughter’s
Monetary Recoveries                                                            and son’s names to conceal the sales from FSA. As part
σσ    In mid-2003, a Greenwich, Connecticut, food service                      of a plea agreement, the producer also agreed to a 5-year
      management company voluntarily disclosed that it had                     disqualification from participation in FSA programs.
      violated National School Lunch Program (NSLP) rules                σσ    In December 2008, after pleading guilty to conversion of
      and regulations by inflating costs on invoices and making                FSA collateral and bankruptcy fraud, a Wilcox, Arizona,
      false claims to the U.S. Government. Our investigation                   man was sentenced to 1 year in prison. Both he and his wife
      disclosed that from 1998 through the end of 2002, the                    were further sentenced to 6 years of probation and ordered
      company overcharged school districts and other customers                 to pay $268,050 in restitution by a Federal court in the
      in excess of $8 million for costs that were never incurred.              District of Arizona. Their daughter had pled guilty earlier
      In December 2008, in U.S. District Court for the                         last year to conversion of FSA collateral and was sentenced
                                                                               to 1 year of probation and restitution of $1,000.




                                                                         USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half           9
                                                                    Goal 2




     The husband and wife, along with their 18-year-old                  Investigations Thwart Payment Limitations Schemes
     daughter, had fraudulently applied for and later received real
                                                                         σσ    A joint investigation with the IRS disclosed that a Wray, Georgia,
     estate and operating loans of more than $923,000 from FSA
                                                                               producer created several entities in his children’s names to avoid
     to operate a farm. After obtaining the loans, they not only
                                                                               FSA payment limitations and conspired with an employee of a crop
     failed to make payments but also converted approximately
                                                                               production company to divert more than $4 million in promotional
     $103,000 of FSA-pledged collateral, which they used, in
                                                                               farm products and inventory for their personal gain. The loss to
     part, to purchase two Mercedes-Benz vehicles, and deposited
                                                                               USDA was approximately $1.3 million. The producer was charged
     the remainder in their bank accounts. The husband and
                                                                               with conspiracy to commit money laundering and conspiracy to
     wife previously had filed for bankruptcy and had hidden
                                                                               make false claims/statements. In October 2008, a Georgia
     assets from the bankruptcy court. The bankruptcy was
                                                                               Federal court sentenced the producer to 60 months
     ultimately dismissed due to their fraudulent activities.
                                                                               of imprisonment and ordered him to pay $1.36 million
σσ   A Dutton, Montana, producer was sentenced in December                     in restitution to FSA. He was also ordered to pay
     2008 in U.S. District Court to serve 12 months in Federal                 $4 million in restitution to the crop production company.
     prison, followed by 24 months of probation, and was fined
                                                                         σσ    In 2000 and 2001, two Emmons, Minnesota, producers
     $10,000 after his guilty plea to conversion of mortgaged
                                                                               conspired to violate FSA payment eligibility provisions and,
     grain. The OIG investigation disclosed that, from August
                                                                               as a result, received $563,879 in farm program payments.
     2006 to April 2007, the producer sold approximately
                                                                               The two made false statements on their farm operating
     50,000 bushels of mortgaged grain and received $136,951
                                                                               plans and submitted altered documents that caused FSA to
     in sales proceeds that he failed to remit to FSA.
                                                                               approve the funds. In December 2006, each was charged in
σσ   An Elkader, Iowa, producer admitted that he sold                          Federal Court for the District of Minnesota with defrauding
     approximately 19,315 bushels of Commodity Credit                          FSA. In September 2008, one producer pled guilty and
     Corporation (CCC)-mortgaged corn, valued at $38,517.                      was sentenced to 2 years of probation and ordered to pay
     The producer split the sales proceeds with his son                        $26,658 in restitution. The second producer entered into a
     and failed to notify FSA or to provide any of the sales                   settlement agreement with the U.S. Department of Justice
     proceeds to FSA. In November 2008, the producer was                       (DOJ), wherein he agreed that he had violated the Civil
     indicted in Federal District Court for the Northern                       False Claims Act, and paid a $75,000 civil settlement.
     District of Iowa for conversion of mortgaged grain and
     subsequently pled guilty. Sentencing is pending.                    Nine Individuals Sentenced for Conspiracy To
σσ   An OIG investigation revealed that two owners of a
                                                                         Structure $4.5 Million in Money Transactions Related
     Munnsville, New York, dairy farm made false statements              to Tobacco Fraud
     to FSA to receive more than $450,000 in USDA loans                  A joint investigation in Nashville, Tennessee, conducted by OIG,
     for their farm. The owners, who are brothers, filed for             IRS-CI, the FBI, and the Tennessee Bureau of Investigation
     bankruptcy and admitted to making false statements to the           revealed that nine individuals conspired to structure more than
     U.S. Bankruptcy Court regarding their assets. The brothers
                                                                         $4.5 million in money transactions relating to tobacco fraud. In
     sold 200 dairy cows—valued at $150,000 and pledged to
                                                                         October 2007, after a 7-day trial, a jury found two individuals
     FSA as loan security—without FSA approval. The brothers
     subsequently testified in Federal bankruptcy court that
                                                                         guilty of conspiring to structure more than $4.5 million in cash
     the dairy cattle had died. In July 2008, the brothers were          to evade IRS reporting requirements. The jury also found these
     sentenced in Federal court to 5 years of probation, and each        defendants responsible for a $4.5 million forfeiture judgment.
     was ordered to pay half the total of $450,000 in restitution        There was testimony at the trial that the cash obtained through
     to FSA. The bankruptcy court dismissed their bankruptcy             the structured transactions was used, at least in part, for
     filing.                                                             engaging in illegal tobacco transactions and bribing executives
                                                                         from tobacco companies. The other seven co-defendants
                                                                         previously had pled guilty in Federal court in Tennessee to a
                                                                         variety of charges including conspiring to structure financial
                                                                         transactions to avoid IRS reporting requirements, conspiring
                                                                         to make false statements to USDA regarding the tobacco




10    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half
                                                                  Goal 2




program, and money laundering. The defendants received                 Program Weakness in Group Risk Protection (GRP)
sentences ranging from 1 year of probation to 60 months of             Plans of Insurance Could Result in Excessive
imprisonment and were ordered to pay up to $393,857 in                 Indemnities
forfeiture judgments and fines.
                                                                       Our review identified problems in counties where the Risk
Michigan Producer Sentenced for Fraudulent Loan                        Management Agency (RMA) offered GRP and Group Risk
Application                                                            Income Protection (GRIP) insurance plans that do not specify
An OIG investigation revealed that a Niles, Michigan, producer         or differentiate between irrigated and non-irrigated practices.
conspired with his mother and two other individuals to                 For some county crop programs, RMA offered GRP/GRIP
defraud FSA of loan proceeds and program payments. At the              insurance plans based on a blended yield (that is, a weighted
producer’s direction, one co-conspirator obtained a $124,000           average of different agricultural practices) because it believed it
FSA operating loan despite not conducting farm operations.             did not have sufficient National Agricultural Statistics Service
A second co-conspirator obtained an FSA operating loan for             (NASS) production and acreage data to establish the insurance
$175,000 for which she received approximately $50,000 in               coverage by practice.
cash from the producer. The producer pled guilty to one count          This program design weakness could result in policyholders
of conspiracy to provide a fraudulent loan application to FSA.         receiving an excessive indemnity payment even though a normal
In October 2008, a Federal court in Michigan sentenced the             crop is produced. In one county alone, we determined that GRIP
producer to 42 months in prison and ordered him to pay                 policyholders of irrigated and non-irrigated corn acres could
$305,000 in restitution. Two of the co-conspirators pled guilty        receive excessive indemnities totaling as much as $35 million
to providing false statements and received lesser sentences; they      for the 2008 crop year. This occurred because the blended
were ordered to pay $131,000 and $175,000 in restitution               yield was affected by a wide disparity between the irrigated and
respectively. Charges against the producer’s mother were               non-irrigated yield (the disparity totaling 138 bushels per acre),
dismissed.                                                             as well as a sizeable change increase in non-irrigated acres
Florida Construction Company Owner Who Defrauded                       compared to irrigated acres. We also identified 513 additional
the Natural Resources Conservation Service (NRCS)                      GRP/GRIP county crop programs offered in 15 States and
                                                                       376 counties that are potentially at risk of producers taking
Ordered To Pay $600,000 to IRS for False Tax Return
                                                                       advantage of disparities between irrigated and non-irrigated
A joint OIG and IRS investigation disclosed that a Live Oak,           yields. RMA agreed with our recommendations to correct these
Florida, construction company owner conspired with poultry             shortcomings. (Audit Report No. 05601-4-KC, RMA Use of
and dairy farmers to defraud NRCS. The producers submitted             NASS’ County Average Yields for the GRP Plans of Insurance)
inflated invoices for construction projects eligible for cost share
assistance under the Environmental Quality Incentives Program          Crop Insurance Agent Sentenced to Prison
and the Watershed Protection and Flood Prevention Program. A           A joint OIG and RMA-Compliance investigation disclosed
Federal court in Florida sentenced the owner in October 2008           that, from 1998 to 2002, a licensed Loup City, Nebraska,
to 18 months of imprisonment and 12 months of probation.               crop insurance agent defrauded USDA of approximately
The owner had previously pled guilty to one count of filing a          $6.7 million when he created fraudulent yield histories for
false tax return and was ordered to pay more than $600,000             his clients, which increased perceived losses and subsequent
to the IRS for under reported taxes, penalties, and interest. In       indemnity payouts to farmers. The scheme also qualified the
December 2008, the tax preparer was charged in the Middle              agent for substantial commissions and bonuses to which he
District of Florida with one count of accessory after the fact         was not entitled. In October 2008, the agent pled guilty to
relating to her knowledge that the construction company owner          making false statements to RMA. In January 2009, the agent
had reported false information on his tax returns. In March            was sentenced to serve 12 months and 1 day in Federal prison,
2009, the tax preparer was convicted and fined $2,500.                 followed by 24 months of supervised release.




                                                                      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half          11
                                                                  Goal 2




 GOVERNMENTWIDE ACTIVITIES – GOAL 2                                             land, by sale or gift, will be considered a bona fide
                                                                                and substantive change in a farming operation and
 Review of Legislation, Regulations, Directives,                                qualify a new person or legal entity for payments.
 and Memoranda                                                                  One requirement is that the transferred “amount”
                                                                                of such equipment or land must be commensurate
 σσ    Proposed Rule 7 C.F.R. Parts 761 and 762, “Maximum
                                                                                with the new person’s or legal entity’s share of the
       Interest Rates on Guaranteed Farm Loans.” OIG
                                                                                farming operation. OIG pointed out that it was
       commented on this proposed rule in conjunction
                                                                                not clear what was meant by the word “amount”
       with following up on recommendations in Audit
                                                                                and recommended that the rule clarify whether the
       Report No. 03601-17-Ch, FSA’s Controls Over
                                                                                “amount” of such equipment or land means value
       Guaranteed Farm Loan Interest Rates and Interest
                                                                                of the equipment/land or numbers of pieces of
       Assistance (September 2008). In the audit report, we
                                                                                equipment/acres of land. Another example of OIG’s
       had reported that FSA did not have controls to ensure
                                                                                efforts to promote clarity was a recommendation that
       that lenders’ interest rates met program requirements.
                                                                                the rule consistently use the term “joint operations,”
       FSA agreed that the interest rate requirements were
                                                                                which is defined to include general partnerships
       unclear and agreed to simplify and clarify the interest
                                                                                and joint ventures, rather than sometimes referring
       rate requirements by amending its existing rules. In
                                                                                solely to general partnerships and/or joint ventures.
       the proposed rule, FSA proposed tying the maximum
       interest rate that may be charged to nationally                     Reviews Coordinated With Other Government
       published indices unless the lender uses a formal                   Entities
       written risk-based pricing model for loans, in which
       case the rate must be the rate charged to moderate-                 σσ   OIG shared its technical knowledge and expertise with
       risk borrowers. To ensure clarity and reasonableness                     the OIG of the Export-Import Bank of the United
       of interest rates throughout the term of variable                        States for approximately 10 months. The bank’s OIG
       rate loans, OIG recommended that FSA establish                           contracted with an Independent Public Accountant
       interest rate limits for such loans throughout the                       (IPA) to perform an audit of the Medium Term Credit
       term of the loan, not just at loan closing. OIG also                     Program. The audit required the IPA to identify
       recommended that FSA establish clear limits for the                      control deficiencies, assess the adequacy of information
       interest rate that can be charged to a moderate-risk                     technology (IT) systems, and evaluate the Bank’s
       borrower and for lenders using a risk-based pricing                      effectiveness in identifying fraud and managing credit
       model. FSA should also establish specific procedures                     losses. Through a memorandum of understanding,
       to evaluate the reasonableness of interest rates charged                 USDA OIG assisted in monitoring the contractor’s
       by lenders using a risk-based pricing model.                             performance and reviewing audit documentation
                                                                                to ensure compliance with auditing standards.
 σσ    Interim Rule 7 C.F.R. Part 1400, “Farm Program
                                                                                The program performance report was submitted
       Payment Limitation and Payment Eligibility for 2009
                                                                                to the Export-Import Bank senior management
       and Subsequent Crop, Program, or Fiscal Years.” OIG
                                                                                team on January 30, 2009, for comments.
       commented on this interim rule in conjunction
       with numerous audits and investigations concerning                  Participation on Committees, Working Groups,
       payment limitations. In the audit reports, OIG                      and Task Forces
       made a number of recommendations to address
       loopholes to farm program limitations that OIG                      σσ   OIG Special Agents have been participating in a
       believed impacted effective administration of payment                    Hurricane Katrina/Rita Fraud Task Force since
       limitation provisions. OIG recommended that CCC                          January 2006. From November 1, 2005, to date,
       make a number of changes to clarify procedures,                          OIG has conducted 87 cases in which FNS, FSA,
       definitions, and terms used in the interim rule. For                     and RD have been defrauded by individuals who
       example, the interim rule set forth requirements                         submitted false claims or provided false statements
       under which a change in ownership of equipment or                        to obtain Federal benefits. From June 2006 to date,




12    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half
                                                                 Goal 2




     130 individuals have been indicted, 77 have been
     convicted, and fines and restitution thus far have
                                                                          σσ    An OIG Special Agent is participating on the
     totaled $66,975 and $1,241,773, respectively. The
                                                                                Ohio Organized Crime Investigations Commission
     task force is expected to continue through FY 2009.
                                                                                (OOCIC) Task Force in Dayton. OOCIC provides
σσ   OIG Special Agents are participating on a Bridge                           assistance to local law enforcement agencies in the
     Card Enforcement Team (BCET) task force to                                 investigation of organized criminal activity. OIG
     investigate criminal violations of SNAP and the                            investigators have participated in the OOCIC
     Special Supplemental Nutrition Program for Women,                          Dayton Task Force since 1996 and have conducted
     Infants, and Children (WIC). Members include the                           investigations involving welfare recipient fraud,
     Michigan State Police and IRS-CI. The FBI, SSA                             food stamp trafficking, theft of USDA-mortgaged
     OIG, and Immigration and Customs Enforcement                               farm equipment, stolen property trafficking, and
     have provided assistance during warrant operations.                        dogfighting.
     The initiative, which has been operational since 2007,
     has resulted in 83 arrests and 95 search warrants
     served in the Detroit Metropolitan area. Criminal
                                                                          ONGOING AND PLANNED REVIEWS FOR GOAL 2
     prosecutions are being pursued through the U.S.                      Topics that will be covered in ongoing or planned reviews
     Attorney’s Office for the Eastern District of Michigan               under Goal 2 include:
     and the Michigan Attorney General’s Office. To date,
     the cases have resulted in 54 guilty pleas and sentences             σσ    CACFP followup (Food and Nutrition Service (FNS)),
     that included incarceration, fines, and restitution.                 σσ    followup on the Disaster Supplemental
     Forfeiture actions of more than $2 million have                            Nutrition Assistance Program (FNS),
     been initiated by the U.S. Attorney’s Office. The task               σσ    safety of foods in school meal programs (FNS),
     force is expected to continue through FY 2009.
                                                                          σσ    review of adjusted gross income
σσ   An OIG Special Agent has been working with the FBI’s                       limitation provision (NRCS, FSA),
     Safe Streets Task Force in Indianapolis, Indiana, since
                                                                          σσ    citrus indemnity payments resulting from
     2000. The mission of the task force is to deter street
                                                                                2005 Florida hurricanes (RMA),
     gang and drug-related violence, as well as seek fugitives
     wanted for crimes of violence through long-term,                     σσ    USDA payments for 2005 citrus
     proactive, and coordinated teams of Federal, State,                        canker losses (RMA, FSA),
     and local law enforcement officers and prosecutors.                  σσ    oversight of approved insurance providers’
σσ   An OIG Special Agent has been assigned to the                              (AIP) quality control process (RMA),
     U.S. Marshals Service Fugitive Task Force in                         σσ    controls over the use of new producer
     Chicago, Illinois, since 2008. The mission of the                          designation by AIPs (RMA),
     task force is to apprehend Federal fugitive felons
                                                                          σσ    controls over group risk crop insurance (RMA),
     wanted in the Northern District of Illinois. OIG’s
     participation in this task force is in conjunction                   σσ    controls over Pasture, Rangeland, and
     with our Operation Talon program. (An update on                            Forage Loss Pilot Program (RMA),
     Operation Talon can be found under Goal 3.)                          σσ    review of RMA’s inconsistent yield
σσ   Two OIG Special Agents are participating part time                         and added land procedures,
     on the United States Marshals Service’s Southern                     σσ    controls over relenders that receive low-interest loans
     Ohio Fugitive Apprehension Strike Team (SOFAST)                            in the Rural Business-Cooperative Service (RBS)
     in Columbus and Cincinnati, Ohio. Agents assist                            Intermediary Relending Program,
     with the location and arrest of fugitives by comparing
     fugitive identification information against individuals
     participating in SNAP.




                                                                   USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half                13
                                                             Goal 2




 σσ    controls over lender activities in the Single-                 σσ    controls over The Emergency Food
       Family Housing (SFH) Guaranteed Loan                                 Assistance Program (FNS),
       Program (Rural Housing Service (RHS)),                         σσ    State fraud detection efforts for SNAP (FNS),
 σσ    Rural Rental Housing (RRH) Program maintenance                 σσ    FS administration of grants,
       costs and inspection procedures (RHS),
                                                                      σσ    WIC management – IT systems (FNS),
 σσ    Rural Cooperative Development Grant
       Program eligibility and grant funds                            σσ    FNS management and oversight,
       use for a Missouri entity (RD),                                σσ    SNAP increased benefits from stimulus funds (FNS),
 σσ    controls over expenditures in Water and                        σσ    followup on healthy forests (FS),
       Waste Disposal Grants – Alaska (RUS),                          σσ    FS capital improvement and maintenance,
 σσ    identity of interest review for Multi-Family                   σσ    wildland fire management (FS),
       Housing Loans in Texas (RHS),
                                                                      σσ    FSA IT,
 σσ    business and industry (B&I) lender
                                                                      σσ    direct farm operating loans (FSA),
       loan guarantees (RBS),
                                                                      σσ    NRCS stimulus discretionary funding,
 σσ    payments to quota tobacco producers
       under the Tobacco Transition Payment                           σσ    watershed and flood prevention operations (NRCS),
       (Tobacco Buyout) Program (FSA), and                            σσ    Rural Business Enterprise Grants (RBS),
 σσ    Emergency Conservation Program—2008                            σσ    B&I loan guarantees (RBS),
       emergency disaster assistance (FSA).
                                                                      σσ    controls over eligibility determinations for single-
 The findings and recommendations from these efforts will                   family housing loan stimulus funds (RHS),
 be covered in future Semiannual Reports as the relevant              σσ    rural communities facilities loans and grants (RHS),
 audits and investigations are completed.
                                                                      σσ    single-family housing (SFH) direct
 ONGOING AND PLANNED REVIEWS FOR GOAL 2                                     loans stimulus funds (RHS),
 UNDER ARRA “STIMULUS” FUNDS                                          σσ    SFH administrative expenses for
                                                                            stimulus funding (RHS), and
 Topics that will be covered in ongoing or planned reviews
 for Goal 2 under ARRA include:                                       σσ    monitoring implementation of Trade
                                                                            Adjustment Assistance for Farmers (Foreign
 σσ    summary of nationwide EBT operations (FNS),                          Agricultural Service (FAS), FSA, Economic
 σσ    WIC vendor monitoring (FNS),                                         Research Service, ARS, and CSREES).
 σσ    SNAP participant certification (FNS),                          The findings and recommendations from these efforts will
                                                                      be covered in future Semiannual Reports as the relevant
                                                                      audits and investigations are completed.




14    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half
                                                                      Goal 3




Management Improvement Initiatives
OIG Strategic Goal 3:                                                      EXAMPLES OF AUDIT AND INVESTIGATIVE WORK FOR
                                                                           GOAL 3
Support USDA in implementing its management
improvement initiatives.                                                   Errors by One Approved Insurance Provider (AIP) Led
                                                                           to More Than $16 Million in Erroneous Payments
OIG conducts audits and investigations that focus on such
                                                                           In 2005, Hurricanes Katrina, Rita, and Wilma struck Florida,
areas as improved financial management and accountability, IT
                                                                           resulting in more than $275 million in nursery claims from policies
security and management, research, real property management,
                                                                           reinsured under RMA’s Nursery Crop Insurance Program, a part
employee corruption, and the Government Performance                        of the Federal Crop Insurance Program (FCIP). RMA administers
and Results Act. Our work in this area is vital because the                the FCIP through a cooperative financial assistance agreement,
Department is entrusted with $128 billion in public resources              known as the Standard Reinsurance Agreement (SRA), with private
annually. The effectiveness and efficiency with which USDA                 insurance companies, or AIPs.
manages its assets are critical. USDA depends on IT to
                                                                           Because of the extent of the errors we found at one AIP, we decided
efficiently and effectively deliver its programs and provide
                                                                           to limit our review to that AIP alone. In all phases of the insurance
meaningful and reliable financial reporting. One of the more               process—underwriting policies, adjusting claims for losses,
significant dangers USDA faces is a cyberattack on its IT                  and reporting its indemnities to RMA—the AIP did not fulfill
infrastructure, whether by terrorists seeking to destroy unique            contractual obligations it had agreed to under the SRA. The errors
databases or criminals seeking economic gains.                             resulted in erroneous payments to policyholders of $16,601,134.
                                                                           We recommended that RMA seek an opinion from USDA’s Office
In the first half of FY 2009, we devoted 37 percent of our total
                                                                           of the General Counsel (OGC) as to whether RMA may apply a
direct resources to Goal 3, with 98.7 percent of these resources
                                                                           provision of the SRA to the AIP that allows RMA to suspend the
assigned to critical/high-impact work. A total of 80.0 percent of
                                                                           company from the FCIP.
our audit recommendations under Goal 3 resulted in management
decision within 1 year, and 83.3 percent of our investigative cases
resulted in criminal, civil, or administrative action. OIG issued
12 audit reports under Goal 3 during this reporting period. OIG
investigations under Goal 3 yielded 8 indictments, 16 convictions,
and $843,646 in monetary results during the reporting period.




  MANAGEMENT CHALLENGES ADDRESSED UNDER GOAL 3
  σσ     	Interagency Communications, Coordination, and Program Integration Need Improvement (also under Goals 1, 2, and 4)
  σσ     Implementation of Strong, Integrated Internal Control Systems Still Needed (also under Goal 2)
  σσ     Continuing Improvements Needed in IT Security (also under Goal 1)
  σσ     Material Weaknesses Continue To Persist in Civil Rights Control Structure and Environment
  σσ     USDA Needs To Develop a Proactive, Integrated Strategy To Assist American
         Producers To Meet the Global Trade Challenge (also under Goal 1)
  σσ     Better FS Management and Community Action Needed To Improve the Health of the National
         Forests and Reduce the Cost of Fighting Fires (also under Goals 1 and 4)
  σσ     Implementation of Renewable Energy Programs at USDA




                                                                         USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half            15
                                                                       Goal 3




For the one AIP we reviewed, RMA generally agreed with                      (2) the FSA commodity loan repayment rate on the date the
15 recommendations for recovery of the overpayments                         sheller exercises the option to redeem the peanuts from under loan
from policyholders and strengthening of the AIP’s program                   and accept delivery of the peanuts. Although the NASS survey is
management. Based on informal feedback from OGC, RMA                        supposed to represent the total pounds of peanuts purchased and
contends that it cannot deny reinsurance or indemnity payments              prices paid by shellers in a given week, due to the exercise of option
to all of the AIP’s policyholders. RMA has requested a formal legal         contracts, the survey, at best, represents prices that are established
opinion from OGC. RMA is currently reviewing the overpayments               when option contracts are signed. In addition, neither of the two
to specific policyholders. We are working with RMA to resolve               peanut shellers that allowed us access to their confidential records
our differences. (Audit Report No. 05099-28-At, RMA’s 2005                  included option payments in the voluntary NASS surveys they
Emergency Hurricane Relief Efforts in Florida)                              submitted. Although NASS has since added a new option payment
                                                                            section to its survey, since buyers’ responses are confidential,
FS Employee Embezzles $282,000 in Overtime and                              neither NASS nor FSA can verify if buyers submit complete price
Holiday Pay                                                                 information in future survey responses.
This investigation was initiated after a Hotline complaint                  FSA generally agreed to seek authority to establish mandatory
alleged that an employee in the FS national office was involved             price reporting of peanut purchases by buyers and the authority to
in a scheme to repeatedly and fraudulently claim overtime                   verify buyers’ reported data to NASS. We are working with FSA
and holiday pay for hours which she did not work. The                       to achieve management decision on our recommendation that
investigation revealed that the employee, through processing her            it request NASS to collect buyers’ contract price data for option
own time and attendance (T&A) reports, fraudulently claimed and             contracts negotiated with producers during the week. (Audit
received $282,134 in overtime and holiday pay. In September, the            Report No. 50601-14-KC, FSA’s Reliance on NASS’ Published
employee was charged in U.S. District Court for the District of             Peanut Prices)
Columbia for conversion of public money and later pled guilty. In
                                                                            Livestock Indemnity Program (LIP) and Feed
January 2009, the employee was sentenced to serve 18 months in
prison, followed by 3 years supervised release, and ordered to pay
                                                                            Indemnity Program (FIP) Help Producers Recover
$282,134 in restitution to FS. In conjunction with the terms of the         From Livestock and Feed Losses After the 2005
plea agreement, the employee resigned from FS. In addition, FS              Hurricanes
took administrative action against two managers whose failure to            In FYs 2006 and 2007, FSA provided nearly $22.3 million in LIP
certify the employee’s T&A reports resulted in her ability to carry         payments and more than $4.8 million under FIP for the 2005
out the fraudulent scheme.                                                  hurricane losses. We found that while overseeing several disaster-
                                                                            related programs with limited staff, FSA personnel successfully
Mandatory Pricing Needed To Ensure Validity of FSA
                                                                            administered many aspects of the two programs, but we did find
Peanut Program Payments                                                     some areas needing improvement. Almost half (97 of 200) of
We found that NASS’ weekly published average peanut prices are              the approved LIP applications we reviewed relied on third-party
unreliable because they may not be complete, cannot be verified,            certifications. However, producers often provided unclear and
and do not reflect prevailing weekly market values. FSA relies on           inadequate third-party certifications to substantiate their losses. We
those prices to calculate financial assistance payments to peanut           also identified payments based on unsupported beginning livestock
producers, totaling over $1 billion from 2002 to 2007. However,             inventories (prior to the hurricanes), livestock losses in excess of the
NASS uses price data from shellers because there is no public               beginning inventories, and improper changes to Farm Operating
commodities market for in-shell peanuts; the shellers’ participation        Plans that increased the number of participants eligible to receive
in the NASS survey is voluntary and confidential. FSA’s assistance          LIP payments. As a result, we questioned more than $900,000 in
can be affected significantly by even small changes in prices.              program payments. In addition, we determined that the 60-day
                                                                            disaster period may have been excessive, especially in Florida. For
Peanut shellers generally purchase peanuts through option
                                                                            example, producers claimed livestock losses from stress and calving
contracts, which give them the option, at the price quoted in the
                                                                            complications that occurred more than 30 days after the hurricane.
contracts, to accept delivery of producers’ peanuts, often months
later, by redeeming the producers’ peanuts from under FSA                   For future LIP programs, FSA agreed to develop procedures
commodity loans. The quoted price generally has two components:             detailing the documentation required for applicants and third-
(1) a sum certain (“option payment”) per ton of peanuts and                 party certifiers to clearly substantiate claimed livestock losses




16      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half
                                                                       Goal 3




and provide specific instructions for local FSA office personnel            unlawfully possessing a firearm while under the influence of
to follow when applicants do not have verifiable evidence for               methamphetamine, and transporting a firearm across State lines.
establishing beginning inventory. In addition, FSA agreed to                The jury also found the employee and his brother guilty of witness
(1) instruct the Louisiana State FSA Office to coordinate with              tampering and intimidation of witnesses. In November 2008, the
OIG Investigations to take corrective action on six cases under             former FSIS meat inspector was sentenced by a U.S. District Court
investigation, (2) determine the adequacy of documentation                  judge in Iowa to serve 30 months in Federal prison followed by
supporting beginning and ending inventories, (3) review the                 376 months of probation. The meat inspector’s brother was also
State Committee’s determination to approve changes made to                  sentenced to serve 18 months in prison, followed by 36 months
2005 farm program records that increased program payments                   of probation. This investigation was conducted jointly with the
and request the Deputy Administrator for Farm Programs to                   Bureau of Alcohol, Tobacco, Firearms, and Explosives.
make a final determination, (4) seek recovery of any unsupported
payments from the producers in three parishes associated with
                                                                            Employees at USDA Lab Face Administrative
those issues, and (5) review the facts and circumstances regarding          Sanctions for Buying and Selling Prescription Drugs
the establishment of loss claim periods to ensure they correlate            Without a Prescription
eligible loss periods more closely with local conditions related to         A biological science lab technician at the National Veterinary
the disaster. (Audit Report No. 03601-23-KC, LIP and FIP)                   Services Laboratory (NVSL), APHIS, Ames, Iowa, and two
                                                                            veterinarians at the Center for Veterinary Biologics (CVB) in
Former Nebraska RD Employee Sentenced Following
                                                                            Ames, Iowa, purchased prescription drugs from veterinary supply
Guilty Plea for Embezzlement                                                companies and resold them to other USDA lab employees at
A former RD employee in Cambridge, Nebraska, admitted that,                 cost. The drugs were ordered using the subject veterinarians’
from 2004 to 2006, she embezzled more than $42,000 from                     accounts at veterinary supply companies. The lab technician
the accounts of RD borrowers and grant recipients and then                  then facilitated the sale of the drugs to USDA employees, who
deposited the funds into a personal bank account. The employee              used many of the prescription drugs to treat themselves or family
also transferred $16,000 from other borrowers’ accounts to replace          members for various medical ailments and illnesses. The Food
a portion of the stolen funds. A Federal court in the District of           and Drug Administration (FDA) confirmed that approximately
Nebraska sentenced the employee to serve 6 months of home                   67 of the drugs sold were for human use and required a bona fide
detention, followed by 60 months of supervised release, and                 prescription from a physician before they could be dispensed.
ordered restitution of $58,062.                                             Administrative actions are being pursued against at least 19 USDA
                                                                            employees, and, in addition, the biological lab technician has
Operation Talon Update                                                      resigned from her position.
OIG began Operation Talon in 1997 to locate and apprehend
fugitives, many of them violent offenders, who are current or               National Finance Center (NFC) Improved Controls
former food stamp recipients. As of March 31, 2009, Operation               Over Time and Attendance Data
Talon had resulted in 14,011 arrests of fugitive felons during              Our audit of NFC’s T&A validation and correction systems, in
joint OIG and other Federal, State, and local law enforcement               general, found that NFC did not ensure that access to employees’
operations. During this reporting period, OIG agents conducted              T&A data was restricted to only those personnel whose job
Talon joint operations in Arizona and Virginia, making a total of           required it. However, NFC implemented key improvements during
106 arrests, 23 in Arizona and 83 in Virginia. Offenses included            our audit to restrict access to its T&A validation and correction
aggravated assault, burglary, motor vehicle theft, larceny, assorted        systems and instituted a control mechanism to monitor its
drug charges, robbery, fraud, forgery, embezzlement, driving under          employees’ actions in the correction system. Together, these actions
the influence, and sex offenses, among others.                              strengthened NFC’s controls over the two systems to minimize the
                                                                            potential for unauthorized access and unallowable changes to T&A
FSIS Meat Inspector Guilty of Witness Tampering                             data. Accordingly, our report presents no recommendations, and
and Unlawful Possession of a Firearm While Using                            no further action is required by NFC. (Audit Report No. 11501-4-
Methamphetamine                                                             FM NFC’s Application Controls Over T&A Data)
In September 2006, a Federal jury in Iowa found a former
Sioux City FSIS meat inspector guilty of possession of narcotics,




                                                                          USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half           17
                                                                  Goal 3




USDA FY 2008 Consolidated Financial Statements –                       σσ   CCC – Unqualified Opinion in FY 2008/2007. The audit
Unqualified Opinion                                                         of CCC identified five significant deficiencies (the first
                                                                            three are material weaknesses) in CCC’s (1) financial system
The USDA FY 2008 consolidated financial statements received                 functionality and funds control, (2) management’s review
an unqualified opinion. USDA also received a clean opinion on               procedures over the cashflow models, (3) management’s
its FY 2008 special purpose financial statements. For FY 2007, we           analysis of obligations and liabilities for Direct and
had issued a qualified opinion on USDA’s consolidated financial             Countercyclical Payment Programs, (4) information security
statements because of significant revisions made to RD’s credit             controls, and (5) monitoring of sub-recipient agency
reform processes related to the SFH Program cashflow model and              financial information. Three instances of noncompliance
subsidy reestimates. For internal control over financial reporting          related to the Federal Information Security Management
for FY 2008, we identified two significant deficiencies, which we           Act of 2002 (FISMA), FFMIA, and ADA were identified.
believe are material weaknesses: improvements are needed in overall         CCC concurred with the significant deficiencies discussed
financial management and in IT security and controls. Our report            in the report and is implementing corrective actions.
on compliance with laws and regulations discussed three instances
                                                                       σσ   FS – Unqualified Opinion in FY 2008/2007. The audit of
of noncompliance relating to the Federal Financial Management
                                                                            FS identified eight significant deficiencies in FS’ (1) general
Improvement Act (FFMIA), the Anti-Deficiency Act (ADA), and
                                                                            control environment, (2) policy and procedures for financial
certain aspects of appropriations law. As discussed in its Federal
                                                                            management and reporting of wildland fire activity,
Managers’ Financial Integrity Act of 1982 report, the Department
                                                                            (3) management review of credit card transactions and
has plans to address the weaknesses discussed in the report. The
                                                                            controls over the programs, (4) physical inventory policies
key recommendation in this report was limited to additional
                                                                            and procedures for pooled real property, (5) accountability
improvements needed in financial management with respect to
                                                                            for unliquidated obligations, (6) internal controls over
obligations.
                                                                            its environment and disposal liabilities, (7) internal
In addition to auditing the Department’s consolidated and                   controls for revenue-related transactions, and (8) period
special purpose financial statements, audits of six USDA                    end accrual processes. Instances of noncompliance were
agencies were also performed. Details of these financial audits             identified related to appropriations law, FFMIA, and a
                                                                            followup on the FY 2006 ADA violation. FS generally
follow:
                                                                            agreed with the significant deficiencies discussed in
σσ    Federal Crop Insurance Corporation (FCIC)/                            the report and is implementing corrective actions.
      RMA – Unqualified Opinion in FY 2008/2007.
      No significant deficiencies or material weaknesses
      related to internal controls were identified.




18     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half
                                                                         Goal 3




σσ   NRCS – Disclaimer of Opinion in FY 2008. In its
     disclaimer of opinion, KPMG, an independent certified                        GOVERNMENTWIDE ACTIVITIES – GOAL 3
     public accounting firm, reported that NRCS was unable
     to provide sufficient evidential matter in support of
                                                                                  Review of Legislation, Regulations, Directives,
     transactions and account balances in FY 2008, particularly                   and Memoranda
     with respect to obligations, including accrued expenses,                     σσ   President’s Council on Integrity and Efficiency
     undelivered orders, and unfilled customer orders. KPMG’s                          (PCIE) Peer Review Guide for the Generally Accepted
     report on NRCS’ internal control structure over financial                         Government Auditing Standards (GAGAS). OIG
     reporting identified five material weaknesses in NRCS’                            reviewed the exposure draft to update the [then]
     accounting and controls over (1) undelivered orders, (2) unfilled                 PCIE External Peer Review Guide that provides
     customer orders, (3) accrued expenses, and (4) property,                          policy guidance on the implementation of the
     plant, and equipment; as well as (5) controls over financial                      General Standard on Quality Control and Assurance
     reporting. NRCS generally agreed to implement procedures                          of GAGAS. During our review, we recommended
     and controls that ensure (1) undelivered order balances                           that the definition of “pass” be clarified. We
     are valid at period end, (2) unfilled customer orders are                         also recommended that references in the various
     complete and valid at period end, and (3) capital leases                          checklists in the Peer Review Guide be uniform.
     are identified and accounted for as required; as well as
                                                                                  σσ   Exposure Draft Incorporating Generally Accepted
     to provide training to employees (a) regarding policies
                                                                                       Accounting Principles (GAAP) into Financial Accounting
     and procedures over preparing, reviewing, and recording
                                                                                       Standards Advisory Board (FASAB). OIG reviewed
     accruals and (b) to ensure compliance with GAAP.
                                                                                       the exposure draft of a proposed Statement of
σσ   RD – Unqualified Opinion in FY 2008. During                                       Federal Financial Accounting Standards entitled
     FY 2008, RD addressed previously reported weaknesses in                           The Hierarchy of GAAP for Federal Entities, Including
     the credit reform area. As a result, RD’s material weakness                       the Application of Standards, issued by FASAB. The
     was downgraded to a significant deficiency. RD agreed to                          statement proposed to incorporate the hierarchy
     document, explain, and provide support for any adjustments                        of GAAP into FASAB’s authoritative literature. In
     made to the cumulative cash difference and continue to                            addition, the statement proposed to clarify GAAP
     make enhancements to the direct cashflow models in                                for those Federal entities that are currently applying
     FY 2009 and implement those changes early in the fiscal                           financial accounting and reporting standards issued by
     year. This would allow for more time to ensure that all                           FASAB. We generally concurred with the proposal.
     changes to the models are properly made and reviewed.
                                                                                  σσ   Exposure Draft Amending Statements of Federal
σσ   FNS – Unqualified Opinion in 2008/2007. The audit                                 Financial Accounting Standards (SFFAS) 6 and 23.
     of FNS did not identify any significant deficiencies;                             OIG reviewed the exposure draft of a proposed
     however, we reported that FNS is not in full compliance                           SFFAS, Estimating the Historical Cost of General
     with the Improper Payments Information Act of 2002.                               Property, Plant, and Equipment – Amending SFFAS 6
(Audit Reports Nos. 50401-65-FM, 50401-66-FM, 05401-                                   and 23. The statement proposed to amend SFFAS 6
17-FM, 06401-23-FM, 08401-09-FM, 10401-02-FM,                                          and 23 to clarify that reasonable estimates of original
                                                                                       transaction data on historical cost may be used to
85401-15-FM, and 27401-33-Hy, respectively, for the USDA
                                                                                       value general property, plant, and equipment. We
consolidated and special purpose, FCIC/RMA, CCC, and FS
                                                                                       generally concurred with the proposed amendments.
financial statements for FY 2008/2007; the NRCS financial
statements for FY 2008; and the RD and FNS financial                              σσ   Advanced Notice of Proposed Rulemaking 7 C.F.R.
                                                                                       Part 1493, “Export Credit Guarantee Program.” OIG
statements for FY 2008/2007)
                                                                                       commented on an advanced notice of proposed
                                                                                       rulemaking by which the Foreign Agricultural
                                                                                       Service (FAS) and CCC solicited comments to
                                                                                       specific questions on options to reform CCC’s
                                                                                       Export Credit Guarantee Program (GSM 102). OIG




                                                                            USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half              19
                                                                    Goal 3




       recommended that FAS develop and implement a                               funding availability. Finally, OIG recommended
       premium structure that is based on all major actual                        that FAS provide clarification regarding how the
       risks CCC assumes when making a loan guarantee,                            new requirement for monitoring of agreements by
       instead of the simplified risk based fee structure that it                 independent third-party reviewers would complement
       implemented in July 2005. This recommendation had                          FAS’ current system of internal close out reviews.
       previously been made in OIG’s July 2008 GSM-102                       σσ   Federal Acquisition Regulation (FAR) Case 2009-011,
       audit (Audit Report No. 07601-2-HY). In addition,                          ARRA—GAO/IG Access. OIG commented on the
       OIG recommended that CCC consider ways to                                  draft interim rules amending the FAR to implement
       independently verify information provided by an                            Sections 902, 1514, and 1515 of ARRA with respect
       applicant, including, at a minimum, a requirement                          to reviews of contracts using ARRA funds. Specifically,
       that an applicant produce documentation to support                         OIG noted that certain language in the proposed
       the information provided to CCC to better ensure                           FAR provisions did not accurately reflect relevant
       accountability and tracking of relevant commodities.                       ARRA provisions. For example, the draft interim
 σσ    Proposed Rule 7 C.F.R. Parts 1496, 1499, and 1599,                         rules did not properly use the language provided for
       “McGovern Dole International Food for Education and                        in ARRA regarding GAO’s access to records. OIG
       Child Nutrition Program (McGovern-Dole Program)                            also noted that the draft interim rules did not reflect
       and Food for Progress (FFPr) Program.” OIG reviewed                        the IGs’ or GAO’s authority to review records of
       and commented on the CCC and FAS proposed rule,                            or interview any State or local government agency
       amending regulations governing the McGovern-Dole                           administering a contract regarding related transactions.
       Program and FFPr Program. OIG expressed concerns                      σσ   FAR Case 2009-12, ARRA—Whistleblower Protections.
       with FAS’ proposal to remove the Section 416(b)                            OIG commented on the draft interim rules amending
       Program (deriving from the Agricultural Act of 1949)                       the FAR to implement Section 1553 of ARRA with
       from the regulations governing the McGovern-Dole                           respect to protecting State and local government and
       Program and FFPr Program, as the current regulations                       contractor whistleblowers. Specifically, OIG noted
       provide structure and controls for the section 416(b)                      that the draft interim rules required the contracting
       grants, which are operated by the same grantees and                        officer to forward the whistleblower complaints to
       subject to the same risks as grants in the McGovern-                       the agency legal counsel. ARRA, however, requires
       Dole Program and FFPr Program. Therefore, OIG                              the IG to investigate whistleblower complaints.
       recommended that FAS continue to monitor any                               Therefore, OIG recommended that the contracting
       Section 416(b) commodities in the same manner and                          officer forward whistleblower complaints directly to
       subject to the same regulations as the McGovern-                           the IG. OIG also noted that the draft interim rules
       Dole Program and FFPr Program. FAS also proposed                           state that a complainant has been deemed to have
       to eliminate uniform semiannual logistics and                              exhausted all administrative remedies when the head
       monetization reports in favor of mid-point and end-                        of the agency has taken certain actions. However,
       point evaluations by independent third-party reviewers                     certain actions listed can be taken only by the IG
       with times and requirements specified in individual                        rather than the head of the agency. Therefore, OIG
       agreements. In response, OIG recommended that                              recommended that the relevant section be amended to
       FAS establish consistent timeframes for submission of                      reflect those actions that can only be taken by the IG.
       such reports for all agreements, and establish specific
       time periods for the interim evaluation reports rather                Participation on Committees, Working Groups,
       than require them at the non-specific “mid-point”                     and Task Forces
       of agreement operations. OIG also requested that
                                                                             σσ   Council of the Inspectors General on Integrity and
       FAS consider making the requirement for annual
                                                                                  Efficiency (CIGIE). The USDA IG was elected
       Single Audit Act and Office of Management and
                                                                                  as the first Chair of this new Council in mid-
       Budget (OMB) Circular A 133 audits mandatory,
                                                                                  November 2008, a few weeks after the enactment
       regardless of the terms of a particular agreement or
                                                                                  of the IG Reform Act of 2008. One provision of




20    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half
                                                             Goal 3




     the Act established this Council, which merged                        agencies received Recovery Act funding. The Assistant
     the two previous IG councils—the PCIE and the                         IG for Audit is a member of this group. The group
     Executive Council on Integrity and Efficiency.                        has worked to ensure effective communication and
     During this reporting period, the Council’s Executive                 reporting of the various IG ARRA-related activities.
     Council held several meetings to shape the needed                σσ   The USDA IG is a member of the National
     governing and guiding documents for the Council,                      Procurement Fraud Task Force, formed by DOJ in
     specifically its Charter and Strategic Business Plan.                 October 2006 as a partnership among Federal agencies
     The full Council held its first meeting in January                    charged with the investigation and prosecution
     and subsequently approved these documents                             of illegal acts in connection with Government
     establishing CIGIE’s governance, business goals,                      contracting and grant activities. The task force has
     supporting objectives, and performance measures                       worked to better allocate resources and improve
     for the first 2 years of the Council’s operations.                    coordination in procurement and grant fraud cases
σσ   During the reporting period, Congress considered and                  and otherwise to accelerate investigations and
     passed H.R. 1, “ARRA,” which was signed into law                      prosecutions. During this period, the task force
     by the President on February 14, 2009. While this                     has developed training programs on procurement
     legislation was being developed, the Chair of CIGIE                   and forensic auditing. At the regional level, OIG
     and other IGs worked with Congressional committees                    Investigations field offices in the Northeast, Great
     of jurisdiction to discuss IG community views on                      Plains, Midwest, Southeast, Southwest, and Western
     the oversight role to be played by IGs. IG concerns                   Regions participate on procurement fraud task forces
     focused primarily on ensuring effective coordination                  initiated by the local U.S. Attorneys’ Offices. This
     and avoiding duplication in effort between CIGIE,                     task force is expected to continue through FY 2009.
     individual IGs, and the proposed Recovery                        σσ   The National Computer Forensic Division (NCFD)
     Accountability and Transparency Board                                 is an active participant in the CIGIE IT Committee’s
     (RAT Board); ensuring IG independence in performing                   Investigations Subcommittee and the Working
     their oversight work; affording IGs more substantive                  Group on Computer Forensics. The subcommittee
     discretion in handling whistleblower reprisal                         is reviewing Encryption Key Escrow policies in each
     complaints of employees of non-Federal employers                      participating agency to help establish a best-practices
     receiving Recovery Act funding; and extending the                     document related to key escrow. The subcommittee
     period allowed for IG oversight. ARRA, as passed,                     is expected to continue through FY 2009.
     addressed many of the concerns of the IG community.
                                                                      σσ   A forensic analyst from NCFD participates full time
σσ   RAT Board. The RAT Board was established by                           at the FBI’s Heart of America Regional Computer
     ARRA to coordinate and conduct oversight of the                       Forensic Lab (HARCFL) in Kansas City, Missouri.
     funding expended under the Act. The IG is 1 of                        Participation in HARCFL has been beneficial in
     10 IGs designated as members of the Board by the                      obtaining direct access to a Regional Computer
     ARRA. The RAT Board is tasked with a number                           Forensics Laboratory, training, sample policies
     of duties, including oversight of certain aspects of                  and procedures, and, as needed, FBI assistance in
     contracts and grants using ARRA funds, reviewing                      OIG’s forensic examinations. OIG work in this
     wasteful spending and poor management practices                       area is expected to continue through FY 2009.
     related to the Act, and maintenance of the Recovery.
                                                                      σσ   National Single Audit Sampling Project. This project
     gov Web site. The RAT Board is working to develop
                                                                           is being conducted under the auspices of the [then]
     a governance mechanism that will ensure effective
                                                                           PCIE Audit Committee study, Report on National
     coordination of the work of the IGs performing ARRA
                                                                           Single Audit Sampling Project, issued to OMB
     oversight, as well as other oversight bodies such as
                                                                           in June 2007, on the quality of audits performed
     GAO and the State and local governments. The RAT
                                                                           under OMB Circular A-133 and how to improve
     Board, together with CIGIE, also has established
                                                                           them. Prompted by the PCIE study, but not under
     a Working Group, comprised of all the IGs whose




                                                                USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half              21
                                                                 Goal 3




       the purview of PCIE, OMB designated a number                       Testimony Delivered
       of Federal agencies to examine whether the Single
       Audit process should be changed and, if so, how.                   σσ   IG Testifies Before the Senate Homeland Security and
       USDA OIG continues to participate on one of eight                       Governmental Affairs Committee on the Role of the IG
       Single Audit Improvement Workgroups, entitled                           Community in Oversight of Federal Stimulus Activities.
       “The New and Improved Single Audit Process.”                            On March 5, 2009, IG Phyllis K. Fong testified
       This workgroup is seeking input from the audit                          on the role of the IG community in overseeing
       community—Federal (including GAO), State, and                           Federal expenditures and operations under ARRA.
       local governmental auditors, and certified public                       IG Fong presented her testimony in her dual
       accountants—as well as the report user community. In                    capacities as IG at USDA and as Chair of CIGIE.
       addition, the workgroup is coordinating with OMB                        She offered additional perspectives as 1 of 10 IGs
       to implement changes. During Phase I, from February                     who are statutorily appointed to the RAT Board
       2008 to November 2008, the workgroup conducted                          created by ARRA. IG Fong advised the Committee
       a paragraph-by-paragraph review of OMB Circular                         that the IGs at agencies receiving stimulus funds
       A-133 to identify parts that require change, addressing                 were actively engaged in planning to meet their
       both the impact on the community as well as the                         responsibilities, and the community’s emphasis was
       single audit process. When the review is completed                      on taking proactive measures to ensure the proper
       within OMB, the workgroup will draft a Federal                          expenditure and usage of vast public monies involved.
       Register Notice to accompany a Notice of Proposed                       The IG’s testimony discussed three significant new
       Rulemaking. Moreover, in Phase II, this workgroup                       responsibilities created for Federal IGs in ARRA:
       will proceed and continue to consider additional                        oversight of stimulus expenditures at their respective
       changes requiring more lengthy study and deliberation,                  agencies and departments, working productively with
       including any recommendations made by GAO or                            the new RAT Board, and assessing stimulus-related
       other parties for changes in the single audit process.                  whistleblower complaints from non-Federal personnel
                                                                               (State and local government employees, contractors,
 σσ    Financial Statement Audit Network (FSAN)
                                                                               etc.). IG Fong stated that OIGs would have to
       Workgroup. USDA OIG auditors are members
                                                                               carefully monitor the staff and resource requirements
       of the FSAN workgroup. FSAN consists of OIG
                                                                               necessary to meet these new responsibilities as Federal
       auditors from numerous Federal agencies, and its
                                                                               stimulus funds were expended. The IG’s testimony
       main purpose is to share ideas, knowledge, and
                                                                               described CIGIE’s supportive input to OMB for its
       experience concerning Federal financial statement
                                                                               ARRA implementation guidance and the continuing,
       audits. In conjunction with FSAN, USDA
                                                                               productive relationships that OIGs have with their
       OIG hosted the CIGIE/GAO Annual Financial
                                                                               counterparts at GAO. IG Fong provided extensive
       Statement Audit Conference in the Department’s
                                                                               overview information to the Committee about
       Jefferson Auditorium on March 24, 2009.
                                                                               common approaches within the IG community
                                                                               to ARRA oversight, the initial stimulus oversight
                                                                               plan she was implementing at USDA OIG, and
                                                                               major “lessons learned” by the community from
                                                                               the emergency Federal relief operations conducted
                                                                               after the Gulf Coast hurricanes in 2005.




22    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half
                                                                Goal 3




ONGOING AND PLANNED REVIEWS FOR GOAL 3                                   σσ    Department and standalone agencies’ financial
                                                                               statements for FYs 2008 and 2009 (Office of
Topics that will be covered in ongoing or planned reviews                      the Chief Financial Officer (OCFO)),
under Goal 3 include:
                                                                         σσ    retirement, health, and life insurance withholdings/
σσ    ARS management controls over research agreements,                        contribution and supplemental headcount
σσ    Grain Inspection, Packers and Stockyards                                 report submitted to the Office of Personnel
      Administration’s (GIPSA) management and                                  Management FYs 2008 and 2009 (OCFO),
      oversight of the Packers and Stockyards Program,                   σσ    FY 2009 FSA accounting for farm loan programs,
σσ    RMA compliance activities,                                         σσ    FY 2009 NFC general controls,
σσ    Hurricane Indemnity Program – integrity                            σσ    FY 2009 FISMA (Office of the Chief
      of data provided by RMA,                                                 Information Officer (OCIO)),
σσ    FS replacement plan for firefighting aerial resources,             σσ    FY 2009 National Information Technology
σσ    FS acquisition of IT software/hardware,                                  Center general controls (OCIO), and

σσ    FS contract review for fire-effect modeling programs,              σσ    	 Y 2009 Defense Contract Audit Agency
                                                                               F
                                                                               contract audit administration.
σσ    FS capital improvement and maintenance,
                                                                         The findings and recommendations from these efforts will
σσ    effectiveness and enforcement of debarment
                                                                         be covered in future Semiannual Reports as the relevant
      and suspension regulations in USDA,
                                                                         audits and investigations are completed.
σσ    controls over RHS disaster assistance payments,
σσ    Oklahoma Rural Rental Housing company
                                                                         ONGOING AND PLANNED REVIEWS FOR GOAL 3
      management practices (RHS),                                        UNDER ARRA “STIMULUS” FUNDS
σσ    controls over property used to secure farm loans (FSA),            Topics that will be covered in ongoing or planned reviews
σσ    Farm Loan Program foreclosures on socially                         for Goal 3 under ARRA include:
      disadvantaged borrowers (FSA),                                     σσ    State grants for aquaculture assistance (FSA),
σσ    implementation of the 2008 Farm Bill provisions                    σσ    RUS controls over Water and Waste Disposal
      and mandates (FSA, NRCS, RMA, and RD),                                   Loan and Grant Programs, and
σσ    hurricane relief initiatives:                                      σσ    ARRA reporting oversight (OCFO).
      • 	 Section 32 Hurricane (crop) Indemnity Program                  The findings and recommendations from these efforts will be
          (FSA and CCC),                                                 covered in future Semiannual Reports as the relevant audits
                                                                         and investigations are completed.




                                                                   USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half             23
                                                                     Goal 4




Stewardship Over Natural Resources

OIG Strategic Goal 4:                                                         MANAGEMENT CHALLENGES ADDRESSED UNDER
Increase the efficiency and effectiveness with which                          GOAL 4
USDA manages and exercises stewardship over                                   σσ   Interagency Communications, Coordination,
natural resources.                                                                 and Program Integration Need Improvement
                                                                                   (also under Goals 1, 2, and 3)
OIG’s audits and investigations focus on USDA’s management
and stewardship of natural resources, including soil, water,                  σσ   Better FS Management and Community
                                                                                   Action Needed To Improve the Health of
and recreational settings. Our work in this area is vital because
                                                                                   the National Forests and Reduce the Cost of
USDA is entrusted with hundreds of billions of dollars in fixed
                                                                                   Fighting Fires (also under Goals 1 and 3)
public assets, such as the 192.5 million acres of national forests and
wetlands. USDA also provides scientific and technical knowledge
for enhancing and protecting the economic productivity and                EXAMPLES OF AUDIT AND INVESTIGATIVE WORK FOR
environmental quality of the estimated 1.5 billion acres of forests       GOAL 4
and associated rangelands in the United States.
                                                                          Chemical Representative Assisted in the Submission
In the first half of FY 2009, we devoted 3 percent of our total           of False Claims for Conservation Security Program
direct resources to Goal 4, with 99.6 percent of these resources          (CSP) Benefits
assigned to critical/high-impact work. A total of 100 percent
                                                                          Eighteen participants in NRCS’ CSP, in a scheme to
of our audit recommendations under Goal 4 resulted
                                                                          defraud, submitted fraudulent soil test results in 2005 to
in management decision within 1 year, and none of our
                                                                          qualify for and receive compensation from CSP totaling
investigative cases resulted in criminal, civil, or administrative
                                                                          $473,567. OIG determined that a Spokane, Washington,
action. OIG issued no audit reports under Goal 4 during this
                                                                          chemical representative assisted several of the 18 participants
reporting period. OIG investigations under Goal 4 yielded one
                                                                          in the creation of fraudulent soil test reports submitted to
indictment, one conviction, and $30,100 in monetary results
                                                                          NRCS. From 2006 to 2008, the 18 CSP participants paid
during the reporting period.                                              administrative recoveries totaling $628,591 to NRCS. In
                                                                          March 2009, five of the most egregious violators involved in
                                                                          this scheme and the chemical representative each agreed to a
                                                                          Civil False Claims Act settlement in the amount of $5,500.




24      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half
                                                                  Goal 4




GOVERNMENTWIDE ACTIVITIES – GOAL 4                                         Testimony Delivered
Review of Legislation, Regulations, Directives,                            σσ   Deputy Inspector General (DIG) Testifies Before the
and Memoranda                                                                   House Agriculture Committee’s Subcommittee on
σσ   Interim Final Rule 7 C.F.R. Part 1466, “Environmental                      Conservation, Credit, Energy, and Research Regarding
     Quality Incentives Program (EQIP).” OIG                                    Administration and Management Issues at USDA’s
     commented on an interim NRCS/CCC final rule                                NRCS. On March 25, 2009, DIG Kathleen S. Tighe
     that amends regulations governing USDA’s EQIP.                             presented testimony on recent OIG oversight of NRCS
     OIG recommended that NRCS follow up on                                     programs and operations. The first issue presented
     recommendations from a September 2006 GAO                                  by the DIG was OIG’s assessment of a private firm’s
     review of EQIP, relating to the program’s fund                             audit of NRCS financial statements in FY 2008. The
     allocation formula (Report No. GAO-06-969). OIG                            financial statement audit found that NRCS could not
     also recommended that NRCS require producers                               support its transactions and account balances because
     to provide supporting documentation and evidence                           of a lack of Federal financial accounting expertise at
     of gross farm sales and household income before a                          the agency. DIG Tighe stated that NRCS has taken
     producer is determined to be eligible for the program,                     steps to address the deficiencies disclosed in the 2008
     as outlined in OIG’s February 2005 EQIP audit                              financial audit, such as training NRCS employees
     (Audit Report No. 10099-18-KC). In addition,                               on financial accounting principles and procuring an
     OIG recommended that NRCS provide clarification                            outside evaluation of the agency’s efforts to clean up
     on certain definitions, the pre contract approval                          its financial statements. The second topic discussed by
     waiver process, the contract application grouping                          the DIG was recent or pending OIG audits of NRCS
     and selection process (including consideration of its                      program operations. DIG Tighe testified that OIG
     effect on historically underserved producers), the                         had previously determined that the agency’s Wetland
     percentage of indirect costs that are excluded from                        Reserve Program (WRP) compensation determinations
     Conservation Innovation Grants, and the relationship                       had significantly underestimated the market value
     between environmental credits and EQIP contracts.                          of WRP easements. DIG Tighe said NRCS had
                                                                                subsequently modified its WRP appraisal methodology
σσ   Interim Final Rule 7 C.F.R. Part 1491, “Farm and
                                                                                to recognize the residual value of easement-
     Ranch Lands Protection Program (FRPP).” OIG
                                                                                encumbered lands. After discussing OIG audits
     provided comments on this NRCS and CCC interim
                                                                                involving problems of interagency coordination and
     final rule, which implements amendments to FRPP’s
                                                                                landowner compliance in WRP, DIG Tighe advised
     authorizing legislation enacted in 2008. The interim
                                                                                the Subcommittee of OIG’s nearly completed review
     final rule requires a non-governmental organization
                                                                                of NRCS’ dam rehabilitation program. OIG’s audit
     to have a “dedicated fund” for the administration of
                                                                                found that NRCS has not always rehabilitated the
     conservation easements in order to be eligible as a
                                                                                dams that pose the greatest risk to public safety. The
     “certified entity” under FRPP. While the interim final
                                                                                DIG testified that NRCS officials have acknowledged
     rule required the “dedicated fund” to be “sufficiently
                                                                                the need to expeditiously complete assessment of
     capitalized,” it did not define or otherwise explain
                                                                                high-hazard dams and will be using funding provided
     what was meant by “sufficiently capitalized.” To ensure
                                                                                under the ARRA to accomplish this goal. DIG Tighe
     that the dedicated funds have sufficient monies,
                                                                                also discussed oversight work OIG will conduct in FYs
     OIG recommended that NRCS provide additional
                                                                                2009-2010 on NRCS’ use of ARRA funds for activities
     specific guidance on what was meant by “sufficiently
                                                                                such as floodplain easements and watershed operations.
     capitalized.” In addition, to protect the interests of the
     Federal Government, OIG recommended that NRCS                         σσ   IG Testifies Before the House Appropriations Committee’s
     be required to review amendments to easement deeds                         Subcommittee on Interior, Environment, and Related
     and sign an acceptance of amendments to the deeds.                         Agencies Regarding FS Oversight. On March 11,
                                                                                2009, IG Phyllis K. Fong presented testimony to




                                                                     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half               25
                                                                   Goal 4




      the House Interior Appropriations Subcommittee                        ONGOING AND PLANNED REVIEWS FOR GOAL 4
      on OIG audit and investigative work regarding FS.
      IG Fong’s testimony on OIG audit work presented                       Topics that will be covered in ongoing or planned reviews
      followup information on three FS programs and                         under Goal 4 include:
      initiatives related to wildland fire management: large-               σσ    alleged abuse in Farm and Ranch Lands Protection
      fire suppression costs, the Healthy Forests Initiative                      Program by non-governmental organizations (NRCS),
      (HFI), and FS air safety and aerial resources issues.
      IG Fong stated that OIG believes FS managers are                      σσ    CSP (NRCS),
      making progress toward more effective fire suppression                σσ    Wildlife Habitat Incentives Program (NRCS),
      practices due to the increased ability of Incident                    σσ    Environmental Quality Incentives Program (NRCS),
      Commanders to change their management actions
                                                                            σσ    FS processes to obtain and grant
      and tactics during fire suppression efforts. FS is now
                                                                                  rights of way and easements,
      using an interagency Large-Fire Cost Review Guide,
      developed with OIG’s assistance, to conduct large-fire                σσ    FS administration of special use permits, and
      suppression reviews. In response to prior OIG concerns                σσ    FS watershed management.
      about FS’ assessment of wildland fire risks and the
      benefits of fuels treatment projects, IG Fong noted
                                                                            The findings and recommendations from these efforts will
      that FS is now prioritizing hazardous fuels initiatives to            be covered in future Semiannual Reports as the relevant
      allocate its budget and conduct HFI projects. The IG                  audits and investigations are completed.
      informed the Subcommittee about OIG’s upcoming
                                                                            ONGOING AND PLANNED REVIEWS FOR GOAL 4
      report on FS’ program to replace its firefighting aerial
      resources. OIG believes FS and Congress must focus
                                                                            UNDER ARRA “STIMULUS” FUNDS
      on the advancing age and increasing accumulation                      Topics that will be covered in ongoing or planned reviews
      of flight hours of the agency’s firefighting airtankers.              for Goal 4 under ARRA include:
      IG Fong addressed FS’ FY 2008 financial statement
      audit, wherein the agency sustained its unqualified                   σσ    oversight and control of FS activities,
      opinion on its financial statements as it continued to                σσ    oversight and control of watershed and flood
      make progress in financial management and reporting.                        prevention operations (NRCS), and
      The IG then discussed prominent OIG investigations                    σσ    oversight and control of watershed
      involving FS operations in 2008-2009, primarily the                         rehabilitation program (NRCS).
      investigations into the tragic deaths of FS firefighters
      in the Thirtymile Fire (Washington State) and the                     The findings and recommendations from these efforts will
      Esperanza Fire (California). IG Fong’s testimony also                 be covered in future Semiannual Reports as the relevant
      provided information about OIG’s plan for oversight                   audits and investigations are completed.
      of FS’ stimulus-funded activities in FYs 2009-2010,
      in light of the more than $1.1 billion for Capital
      Improvements & Maintenance and Wildland Fire
      Management the agency received from ARRA.




26   USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half
                                                                Impact of the OIG




Gauging the Impact of OIG
MEASURING PROGRESS AGAINST                                                   For audits we show
THE OIG STRATEGIC PLAN                                                       σσ     reports issued
The first way we gauged our impact was by measuring the extent to            σσ     management decisions made (number of
which our work focused on the key issues under our newly revised                    reports and recommendations)
goals that became effective in FY 2008:                                      σσ     total dollar impact of management-decided reports
1.	 Strengthen USDA’s ability to implement safety and security                      (questioned costs and funds to be put to better use)
    measures to protect the public health as well as agricultural and        σσ     program improvement recommendations
    Departmental resources.
                                                                             σσ     audits without management decision
2.	 Reduce program vulnerabilities and strengthen program
    integrity in the delivery of benefits to program participants.
                                                                             For investigations we show
3.	 Support USDA in implementing its management
    improvement initiatives.                                                 σσ     indictments

4. 	 Increase the efficiency and effectiveness with which USDA               σσ     convictions
     manages and exercises stewardship over natural resources.               σσ     arrests
                                                                             σσ     total dollar impact (recoveries, restitutions, fines)
    IMPACT OF OIG AUDIT AND INVESTIGATIVE WORK                               σσ     administrative sanctions
    ON DEPARTMENT PROGRAMS
                                                                             σσ     OIG Hotline complaints
A second way we gauge our impact is by tracking the outcomes of
our audits and investigations. Many of these measures are codified
in the IG Act of 1978, as amended. The following pages present a
statistical overview of the OIG’s accomplishments this period.


                                PERFORMANCE RESULTS TOTALS UNDER OUR STRATEGIC GOALS
                                                                                                          FY 2008        FY 2009            FY 2009
 Performance Measures                                                                                      Actual         Target            1st Half
                                                                                                                                             Actual
 OIG direct resources dedicated to critical-risk and high-impact work                                         95.3%            90%             94.6%



 Audit recommendations resulting in management decision within                                                84.3%            85%             84.4%
 1 year of report issuance

 Closed investigations previously referred for action that resulted in an                                     72.5%            65%             79.7%
 indictment, conviction, civil suit or settlement, judgment,
 administrative action, or monetary result




                                                                            USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half                27
                                                                        Impact of the OIG




                                    SUMMARY OF AUDIT ACTIVITIES—OCTOBER 2008–MARCH 2009
Reports Issued                                                                                                                                      22
       Audits Performed by OIG                                                                                                                       16
       Evaluations Performed by OIG                                                                                                                   0
       Audits Performed Under the Single Audit Act                                                                                                    0
       Audits Performed by Others                                                                                                                     6
Management Decisions Made
       Number of Reports                                                                                                                             22
       Number of Recommendations                                                                                                                   237
Total Dollar Impact (Millions) of Management-Decided Reports                                                                                $112.9
       Questioned/Unsupported Costs                                                                                                                $3.6ab
          Recommended for Recovery                                                                                                                 $3.6
          Not Recommended for Recovery                                                                                                             $0.0
       Funds To Be Put to Better Use                                                                                                         $109.3
a
    These were the amounts the auditees agreed to at the time of management decision.
b
    The recoveries realized could change as the auditees implement the agreed‑upon corrective action plan and seek recovery of amounts recorded as debts
    due the Department.



                             SUMMARY OF INVESTIGATIVE ACTIVITIES— OCTOBER 2008–MARCH 2009
     Reports Issued                                                                                                                                141
     Cases Opened                                                                                                                                  196
     Cases Closed                                                                                                                                  133
     Cases Referred for Prosecution                                                                                                                109
Impact of Investigations
     Indictments                                                                                                                                   228
     Convictions                                                                                                                                   225a
     Searches                                                                                                                                        58
     Arrests                                                                                                                                       103
Total Dollar Impact (Millions)                                                                                                               $47.4
     Recoveries/Collections                                                                                                                    $2.9b
     Restitutions                                                                                                                             $35.2c
     Fines                                                                                                                                     $6.7d
     Claims Established                                                                                                                            $2.5e
     Cost Avoidance                                                                                                                                $0.0f
     Administrative Penalties                                                                                                                      $0.1g
Administrative Sanctions                                                                                                                            74
     Employees                                                                                                                                       17
     Businesses/Persons                                                                                                                              57
a
    Includes convictions and pretrial diversions. Also, the period of time to obtain court action on an indictment varies widely; therefore, the
     225 convictions do not necessarily relate to the 228 indictments.
b
    Includes money received by USDA or other Government agencies as a result of OIG investigations.
c
    Restitutions are court-ordered repayments of money lost through a crime or program abuse.
d
    Fines are court-ordered penalties.
e
    Claims established are agency demands for repayment of USDA benefits.
f
    Consists of loans or benefits not granted as the result of an OIG investigation.
g
    Includes monetary fines or penalties authorized by law and imposed through an administrative process as a result of OIG findings.




28        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half
                                                        Impact of the OIG




         INVENTORY OF AUDIT REPORTS WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                           FROM OCTOBER 1, 2008, THROUGH MARCH 31, 2009
                                                                                         NUMBER             DOLLAR VALUE
A.    FOR WHICH NO MANAGEMENT DECISION HAD BEEN MADE                                        3                   $75,141,426
      BY OCTOBER 1, 2008
B.    WHICH WERE ISSUED DURING THE REPORTING PERIOD                                         1                   $35,000,000
      TOTALS                                                                                4                $110,141,426
C.    FOR WHICH A MANAGEMENT DECISION WAS MADE DURING                                       3
      THE REPORTING PERIOD
      (1) DOLLAR VALUE OF DISALLOWED COSTS                                                                     $109,242,897
      (2) DOLLAR VALUE OF COSTS NOT DISALLOWED                                                                      $44,472
D.    FOR WHICH NO MANAGEMENT DECISION HAS BEEN MADE                                        1                      $874,986
      BY THE END OF THE REPORTING PERIOD
      REPORTS FOR WHICH NO MANAGEMENT DECISION WAS                                          1                      $874,986
      MADE WITHIN 6 MONTHS OF ISSUANCE


                       INVENTORY OF AUDIT REPORTS WITH QUESTIONED COSTS AND LOANS
                              FROM OCTOBER 1, 2008, THROUGH MARCH 31, 2009
                                                                                  DOLLAR VALUES
                                                                                QUESTIONED COSTS        UNSUPPORTEDa COSTS
                                                            NUMBER                 AND LOANS                AND LOANS
A.   FOR WHICH NO MANAGEMENT                                    11                  $21,678,057                 $23,889
     DECISION HAD BEEN MADE BY
     OCTOBER 1, 2008
B.   WHICH WERE ISSUED DURING THIS                              3                  $219,135,264              $1,039,135
     REPORTING PERIOD
      TOTALS                                                   14                $240,813,321              $1,063,024
C.   FOR WHICH A MANAGEMENT                                     8
     DECISION WAS MADE DURING THIS
     REPORTING PERIOD
     (1) DOLLAR VALUE OF DISALLOWED
         COSTS
         RECOMMENDED FOR RECOVERY                                                    $3,607,641                      $0
         NOT RECOMMENDED FOR                                                            $22,225                      $0
         RECOVERY
     (2) DOLLAR VALUE OF COSTS NOT                                                   $1,775,356                      $0
         DISALLOWED
D.   FOR WHICH NO MANAGEMENT                                    6                  $235,729,913              $1,063,024
     DECISION HAS BEEN MADE BY THE
     END OF THIS REPORTING PERIOD
     REPORTS FOR WHICH NO                                       4                   $16,607,085                 $23,889
     MANAGEMENT DECISION WAS
     MADE WITHIN 6 MONTHS OF
     ISSUANCE
Unsupported values are included in questioned values.
a




                                                                 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half   29
                                                           Impact of the OIG




PROGRAM IMPROVEMENT RECOMMENDATIONS                                   σσ       FNS agreed to instruct the State agency to require a
                                                                               sponsor in Ohio to establish one bank account for
A significant number of our audit recommendations carry no                     only CACFP, exclude CACFP funds as collateral
monetary value per se, but their impact can be immeasurable                    for the line of credit, restrict the source of loans to
in terms of safety, security, and public health. They can also                 allowable lenders, and ensure GAAP is adhered to.
contribute considerably toward economy, efficiency, and
                                                                      σσ       RMA agreed with our recommendations to correct
effectiveness in USDA’s programs and operations. During
                                                                               program weakness in GRP and GRIP insurance
this reporting period, we issued 98 program improvement
                                                                               plans that could result in excessive indemnities.
recommendations, and management agreed to implement a total
of 202 program improvement recommendations that were issued           σσ       RMA generally agreed with our recommendations
this period or earlier. Examples of the program improvement                    for strengthening an AIP’s program management.
recommendations issued this period (see the main text of this         σσ       For future LIP programs, FSA agreed to provide procedures
report for a summary of the audits that prompted these program                 detailing the documentation required for applicants
improvement recommendations) include the following:                            and third-party certifiers to clearly substantiate claimed
                                                                               livestock losses and provide specific instructions for local
σσ    FSIS agreed to reassess the inhumane handling
                                                                               FSA office personnel to follow when applicants do not have
      risks associated with cull establishments and
                                                                               verifiable evidence for establishing beginning inventory.
      strengthen its pre-slaughter inspection processes.
σσ    USDA generally agreed to implement a mechanism to
      monitor transgenic plants and animals developed outside the
      United States and a corresponding import control system.
σσ    USDA generally agreed to implement a coordinated,
      comprehensive strategy to promote exporting
      U.S. GE commodities and appointed an official
      to implement our recommendations.




30     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half
                                                                    Impact of the OIG




           SUMMARY OF AUDIT REPORTS RELEASED FROM OCTOBER 1, 2008, THROUGH MARCH 31, 2009
                DURING THE 6-MONTH PERIOD FROM OCTOBER 1, 2008, THROUGH MARCH 31, 2009,
       THE OFFICE OF INSPECTOR GENERAL ISSUED 22 AUDIT REPORTS, INCLUDING 6 PERFORMED BY OTHERS.
                          THE FOLLOWING IS A SUMMARY OF THOSE AUDITS BY AGENCY:
AGENCY                                                   AUDITS RELEASED       QUESTIONED COSTS       UNSUPPORTEDa      FUNDS BE PUT TO
                                                                                  AND LOANS          COSTS AND LOANS      BETTER USE
AGRICULTURAL RESEARCH SERVICE                                  1
COMMODITY CREDIT CORPORATION                                   1
FARM SERVICE AGENCY                                            2                        $1,866,411      $1,039,135
FOOD AND NUTRITION SERVICE                                     3                          $12,436
FOOD SAFETY AND INSPECTION                                     1
SERVICE
FOREST SERVICE                                                 2
MULTIAGENCY                                                    5
NATURAL RESOURCES                                              1
CONSERVATION SERVICE
OFFICE OF THE CHIEF FINANCIAL                                  1
OFFICER
RISK MANAGEMENT AGENCY                                         3                  $217,256,417                             $35,000,000
RURAL DEVELOPMENT                                              1
RURAL UTILITIES SERVICE                                        1
TOTALS                                                         22               $219,135,264           $1,039,135        $35,000,000
TOTAL COMPLETED:
SINGLE AGENCY AUDIT                                            15
MULTIAGENCY AUDIT                                              5
SINGLE AGENCY EVALUATION                                       0
MULTIAGENCY EVALUATION                                         0
TOTAL RELEASED NATIONWIDE                                      22
TOTAL COMPLETED UNDER                                          6
CONTRACTb
TOTAL SINGLE AUDIT ISSUEDc                                     0
a
  Unsupported values are included in questioned values
b
  Indicates audits performed by others
c
  Indicates audits completed as Single Audit




                                                                             USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half     31
                                                                 Impact of the OIG




                                AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                     FROM OCTOBER 1, 2008, THROUGH MARCH 31, 2009
 AUDIT NUMBER       RELEASE DATE                         TITLE                            QUESTIONED   UNSUPPORTED    FUNDS TO BE
                                                                                           COSTS AND    COSTS AND    PUT TO BETTER
                                                                                             LOANS        LOANS           USE
Agricultural Research Service
020170008HQ        2008/10/30          DCAA Audit of International
                                       Technology Centers (ISTC)
Total: Agricultural Research Service                                                 1
Commodity Credit Corporation
064010023FM        2008/11/13          FY 2008 CCC Financial Statements

Total: Commodity Credit Corporation                                                  1
Farm Service Agency
030990182TE        2008/10/23          Payment Limitation Case in Texas



036010023KC        2009/02/02          Hurricane Relief Initiatives: Livestock           $1,866,411    $1,039,135
                                       and Feed Indemnity Program
Total: Farm Service Agency                                                           2   $1,866,411    $1,039,135
Food and Nutrition Service

270990035SF        2008/12/04          FNS’ Continued Monitoring of EBT
                                       Operations – State of California

274010033HY        2008/11/07          FY 2008 FNS Financial Statements



276010037CH        2009/02/26          Monitoring of CACFP Sponsor                       $12,436
                                       Collaborative Network, Toledo, OH
Total: Food and Nutrition Service                                                    3   $12,436
Food Safety and Inspection Service
246010007KC        2008/11/28          Evaluation of FSIS’ Management
                                       Controls Over Pre-Slaughter Activities
Total: Food Safety and Inspection Service                                            1
Forest Service
080170015HQ        2009/03/18          DCAA Audit of OK’s Cascade
                                       Company’s Termination Settlement
                                       Proposal

084010009FM        2008/11/13          FY 2008 Forest Service Financial
                                       Statements




 32      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half
                                                                 Impact of the OIG




                                 AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                      FROM OCTOBER 1, 2008, THROUGH MARCH 31, 2009
 AUDIT NUMBER        RELEASE DATE                        TITLE                             QUESTIONED     UNSUPPORTED       FUNDS TO BE
                                                                                            COSTS AND      COSTS AND       PUT TO BETTER
                                                                                              LOANS          LOANS              USE
Total: Forest Service                                                                 2
Multi-Agency
504010065FM         2008/11/14          FY 2008 USDA Financial Statements
504010066FM         2008/11/17          FY 2008 Audit of USDA’s Closing
                                        Package
506010014KC         2009/03/31          Peanut Pricing for FSA Programs
                                        Purposes
506010014TE         2009/02/20          USDA’s Role in the Export of
                                        Genetically Engineered Agricultural
                                        Commodities
506010017TE         2008/12/12          USDA Controls Over Importation of
                                        Transgenic Plants and Animals
Total: Multi-Agency                                                                   5
Natural Resources Conservation Service
104010002FM         2008/11/13          FY 2008 NRCS Financial Statements
Total: Natural Resources Conservation Service                                         1
Office of the Chief Financial Officer
115010004FM         2008/10/29          Management Over T&A Data
                                        Processed by Time at NFC
Total: Office of the Chief Financial Officer                                          1
Risk Management Agency
050990028AT         2009/03/04          RMA’s 2005 Emergency Hurricane                     $217,256,417
                                        Relief Efforts in Florida
054010017FM         2008/11/06          FY 2008 FCIC Financial Statements
056010004KC         2009/03/04          Use of NASS County Average Yields                                                     $35,000,000
                                        for the Group Risk Protection Plans of
                                        Insurance
Total: Risk Management Agency                                                         3   $217, 256,417                      $35,000,000
Rural Development
854010015FM         2008/11/07          FY 2008 Rural Development Financial
                                        Statements
Total: Rural Development                                                              1
Rural Utilities Service
096010008TE         2009/03/31          Broadband Loan and Loan Guarantee
                                        Programs
Total: Rural Utilities Service                                                        1
Grand Total:                                                                         22   $219,135,264 $1,039,135         $35,000,000




                                                                          USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half   33
                                                             Impact of the OIG




                                             AUDITS WITHOUT MANAGEMENT DECISION
 The IG Act has a number of reporting requirements, among them tracking audits without management decision. The following audits
 did not have management decisions made within the 6-month limit imposed by Congress. Narratives for new entries follow this table.
 An asterisk (*) indicates that an audit is pending judicial, legal, or investigative proceedings that must be completed before the agency
 can act to complete management decisions.

                                               NEW SINCE LAST REPORTING PERIOD
     Agency      Date Issued                              Title of Report                              Total Value          Amount With
                                                                                                       at Issuance           No Mgmt.
                                                                                                       (in dollars)          Decision
 FAS            07/22/2008       1. GSM 102 Export Credit Guarantee Program                                  0                    0
                                 (07601-2-Hy)
 RMA            09/30/2008       2. Crop Loss and Quality Adjustments for                              15,951,016           15,951,016
                                 Aflatoxin Infected Corn
                                 (05601-15-Te)




34     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half
                                                        Impact of the OIG




                                    PREVIOUSLY REPORTED BUT NOT YET RESOLVED
These audits are still pending agency action or are under judicial, legal, or investigative proceedings. Details on the
recommendations where management decisions had not been reached have been reported in previous Semiannual Reports to
Congress. Agencies have been informed of actions that must be taken to reach management decision, but for various reasons the
actions have not been completed. The appropriate Under and Assistant Secretaries have been notified of those audits without
management decisions.


  Agency       Date Issued                               Title of Report                             Total Value Amount With
                                                                                                     at Issuance No Mgmt.
                                                                                                     (in dollars) Decision
APHIS         01/15/08       3. Continued Monitoring of Avian Flu Preparations                       0             0
                             (33701-1-Hy)
CSREES        08/17/07       4. CSREES – Tribal 1994 Land Grant Institutions                         951,345       874,986
                             (13011-3-At)
FAS           02/22/07       5. Trade Promotion Operations                                           0             0
                             (07601-1-Hy)
Multiagency   09/30/03       6. Implementation of Agricultural Risk Protection Act                   0             0
                             (50099-12-KC)
              02/23/04        7. Homeland Security Issues for USDA Grain and                         0             0
                              Commodities Inventory		
                             (50099-13-KC)

              03/28/07       8. Implementation of Trade Title of 2002 Farm Bill and President’s      0             0
                             Management Agenda
                             (50601-12-At)


              03/31/08       9.USDA’s Controls Over the Importation and Movement                     0             0
                              of Live Animals
                             (50601-12-Ch)

RHS           09/30/04       10. Rural Rental Housing Project                                        164,000       164,000
                             Costs, Cairo, IL (04099-143-Ch)*
RMA           03/15/02       11. Monitoring of RMA’s Implementation of Manual 14 Reviews/            0             0
                             Quality Control Review System
                             (05099-14-KC)


              03/26/07       12. Evaluation of RMA Indemnity Payments for 2004                       415,710       415,710
                             Florida Hurricanes
                             (05099-27-At)




                                                                 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half     35
                                                              Impact of the OIG




AUDITS WITHOUT MANAGEMENT DECISION –                                     2. Crop Loss and Quality	Adjustments for Aflatoxin-
NARRATIVE FOR NEW ENTRIES                                                Infected Corn (05601-15-Te, Issued September 30,
                                                                         2008)
1. GSM 102 Export Credit Guarantee Program                               Through AIPs, RMA insures corn producers against losses caused
(07501-2-Hy, Issued July 22, 2008)                                       by aflatoxin (a fungus). In 2005, AIPs paid $17.5 million to Texas
OIG found that most of the corrective actions on the control             producers for aflatoxin-infected corn ($27 million nationwide).
weaknesses that FAS identified during the FY 2006 and 2007               We examined aflatoxin-related payments to Texas producers and
internal control reviews had been taken. The current audit found         concluded that AIPs did not use reasonable rates to calculate
that the premium structure of the loan guarantee program did not         producers’ losses, effectively paying more than their infected corn
include a risk factor for the financial soundness of foreign banks.      was worth. Further, although RMA revised its procedures in 2007
While FAS agreed to revise the premium structure, FAS officials          for AIPs to determine payments, the revised procedures will not
would not provide an estimated completion date for the revision.         ensure that AIPs calculate producers’ actual losses and appropriate
Because of the complex nature and sensitivities of the subject           payments. AIPs accepted unreasonably low values for infected corn,
matter, FAS staff decided to delay making decisions until a new          as demonstrated by the producers later selling their infected corn
FAS Administrator has been selected.                                     for between 5 to 28 times the values accepted by AIPs. Because
                                                                         RMA insures producers for the difference between the value of
                                                                         their infected corn and a pre-established value for uninfected
                                                                         corn, the low values accepted by AIPs resulted in much higher
                                                                         insurance payouts. We questioned nearly $16 million that was paid
                                                                         based on unreasonably low rates (i.e., below $0.25 per bushel).
                                                                         We are working with RMA officials to obtain audit resolution.




36      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half
                                                             Impact of the OIG




INDICTMENTS AND CONVICTIONS
From October 1, 2008, through March 31, 2009, OIG completed 141 investigations. We referred 109 cases to Federal, State, and
local prosecutors for their decision.
During the reporting period, our investigations led to 228 indictments and 225 convictions. The period of time to obtain court
action on an indictment varies widely; therefore, the 225 convictions do not necessarily relate to the 228 indictments. Fines,
recoveries/collections, restitutions, claims established, cost avoidance, and administrative penalties resulting from our investigations
totaled about $47.4 million.
The following is a breakdown, by agency, of indictments and convictions for the reporting period.


                               Indictments and Convictions October 1, 2008 – March 31, 2009
                    Agency                                     Indictments                                  Convictions*
                    APHIS                                           95                                           56
                     FNS                                           104                                           129
                      FS                                             0                                            2
                     FSA                                             8                                           13
                     FSIS                                            5                                           10
                    GIPSA                                            0                                            2
                    NRCS                                             4                                            1
                     RBS                                             0                                            5
                     RHS                                             0                                            2
                     RMA                                             9                                            2
                     RUS                                             3                                            3
                    Totals                                         228                                           225
  *This category includes pretrial diversions.




                                                                         USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half      37
                                                            Impact of the OIG




OFFICE OF INSPECTOR GENERAL HOTLINE                                    received 720 complaints, which included allegations of participant
                                                                       fraud, employee misconduct, and mismanagement, as well as
The OIG Hotline serves as a national receiving point for reports       opinions about USDA programs. Figure 1 displays the volume
from both employees and the general public of suspected incidents      and type of the complaints we received, and figure 2 displays the
of fraud, waste, mismanagement, and abuse in USDA programs             disposition of those complaints.
and operations. During this reporting period, the OIG Hotline



   Figure 1. Volume and Type


          Opinion/Information (49)

          Bribery (1)                                                                                Participant Fraud (426)

           Health/Safety (10)

          Reprisal (0)

           Waste/Management (108)


                                                                                                 Employee Misconduct (126)




   Figure 2. Disposition of Complaints Received


        Filled Without Referral -                                                           Referred to Other Law
        Insufficient Information (33)                                                       Enforcement Agencies (1)
        Referred to OIG Audit or
        Investigations for Review (72)
                                                                                            Referred to USDA Agencies
         Referred to USDA or Other Agencies                                                 for Response (281)
         for Information - No Response
         Needed (86)




        Referred to FNS for Tracking (244)                                                  Referred to State Agency (3)




38     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half
                                                                 Impact of the OIG




                          FREEDOM OF INFORMATION ACT (FOIA) AND PRIVACY ACT (PA) REQUESTS
                                FOR THE PERIOD OCTOBER 1, 2008, TO MARCH 31, 2009
Number of FOIA/PA Requests Received                                                                                             78
Number of FOIA/PA Requests Processed                                                                                            64
  Number Granted                                                                                                                7
  Number Partially Granted                                                                                                      20
  Number Not Granted                                                                                                            37
Reasons for Denial
  No Records Available                                                                                                          7
  Referred to Other Agencies                                                                                                    2
  Requests Denied in Full Exemption 5                                                                                           2
  Requests Denied in Full Exemption 7(A)                                                                                        10
  Requests Denied in Full Exemption 7(C)                                                                                        5
  Request Withdrawn                                                                                                             5
  Fee-Related                                                                                                                   2
  Not a Proper FOIA Request                                                                                                     1
  Not an Agency Record                                                                                                          2
  Duplicate Request                                                                                                             1
  Other                                                                                                                         0
Requests for OIG Reports From Congress and Other Government Agencies
  Received                                                                                                                      8
  Processed                                                                                                                     9
Appeals Received                                                                                                                8
Appeals Processed                                                                                                               6
  Appeals Completely Upheld                                                                                                     4
  Appeals Partially Reversed                                                                                                    0
  Appeals Completely Reversed                                                                                                   1
  Appeals Requests Withdrawn                                                                                                    0
  Other                                                                                                                         0
Number of OIG Reports/Documents Released in Response to Requests                                                                15
NOTE 1: A request may involve more than one report.
NOTE 2: During this 6-month period, 27 audit reports were posted to the Internet at the OIG website: http://www.usda.gov/oig.




                                                                           USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half   39
                                                            Abbreviations




             Abbreviations of Organizations                                      Abbreviations of Organizations
AMS          Agricultural Marketing Service                           IRS         Internal Revenue Service
APHIS        Animal and Plant Health Inspection Service               ISTC        International Science and Technology Centers
ARS          Agricultural Research Service                            MDPHHS      Montana Department of Public Health and
BCET         Bridge Card Enforcement Team                                         Human Services
CCC          Commodity Credit Corporation                             NASS        National Agricultural Statistics Service
CI           Criminal Investigation (IRS)                             NCFD        National Computer Forensic Division
CIGIE        Council of the Inspectors General on Integrity and       NFC         National Finance Center
             Efficiency                                               NJTTF       National Joint Terrorism Task Force
CSREES       Cooperative State Research, Education, and               NRCS        Natural Resources Conservation Service
             Extension Service
                                                                      NVSL        National Veterinary Services Laboratory
CVB          Center for Veterinary Biologics
                                                                      OCFO        Office of the Chief Financial Officer
DCAA         Defense Contract Audit Agency
                                                                      OCIO        Office of the Chief Information Officer
DHS          U.S. Department of Homeland Security
                                                                      OGC         Office of the General Counsel
DOJ          U.S. Department of Justice
                                                                      OIG         Office of Inspector General
FAS          Foreign Agricultural Service
                                                                      OMB         Office of Management and Budget
FBI          Federal Bureau of Investigation
                                                                      OOCIC       Ohio Organized Crime Investigations Commission
FCIC         Federal Crop Insurance Corporation
                                                                      PCIE        President’s Council on Integrity and Efficiency
FDA          Food and Drug Administration
                                                                      PPQ         Plant Protection and Quarantine
FNS          Food and Nutrition Service
                                                                      RAT Board Recovery Accountability and Transparency Board
FS           Forest Service
                                                                      RBS         Rural Business-Cooperative Service
FSA          Farm Service Agency
                                                                      RD          Rural Development
FSAN         Financial Statement Audit Network
                                                                      RHS         Rural Housing Service
FSIS         Food Safety and Inspection Service
                                                                      RMA         Risk Management Agency
GAO          Government Accountability Office
                                                                      RUS         Rural Utilities Service
GIPSA        Grain Inspection, Packers and Stockyards
                                                                      SOFAST      Southern Ohio Fugitive Apprehension Strike Team
             Administration
                                                                      SSA         Social Security Administration
HARCFL       Heart of America Regional Computer Forensic Lab
                                                                      TVA         Tennessee Valley Authority
ICE          Immigration and Customs Enforcement (DHS)
                                                                      USDA        U.S. Department of Agriculture
                                                                      UC          University of California




40     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half
EXAMPLES OF PROGRAM IMPROVEMENT RECOMMENDATIONS MANAGEMENT AGREED TO DURING THIS REPORTING
PERIOD (202 TOTAL)
σσ    FSIS agreed to reassess the inhumane handling risks associated with cull establishments
      and strengthen its pre-slaughter inspection processes.
σσ    USDA generally agreed to implement a mechanism to monitor transgenic plants and animals
      developed outside the United States and a corresponding import control system.
σσ    USDA generally agreed to implement a coordinated, comprehensive strategy to promote exporting
      U.S. GE commodities and appointed an official to implement our recommendations.
σσ    FNS agreed to instruct the State agency to require a sponsor in Ohio to establish one bank account for only CACFP, exclude
      CACFP funds as collateral for the line of credit, restrict the source of loans to allowable lenders, and ensure GAAP is adhered to.
σσ    RMA agreed with our recommendations to correct program weakness in GRP and
      GRIP insurance plans that could result in excessive indemnities.
σσ    RMA generally agreed with our recommendations for strengthening an AIP’s program management.
σσ    For future LIP programs, FSA agreed to provide procedures detailing the documentation required for applicants and third-party
      certifiers to clearly substantiate claimed livestock losses and provide specific instructions for local FSA office personnel to follow when
      applicants do not have verifiable evidence for establishing beginning inventory.


MISSION OF OIG
σσ    OIG assists USDA by promoting effectiveness and integrity in the hundreds of programs of the Department. These programs
      encompass a broad spectrum, involving such areas as consumer protection, nutrition, animal and plant health, agricultural
      production, agricultural product inspection and marketing, rural development, research, conservation, and forestry. They affect our
      citizens, our communities, and our economy.


OIG STRATEGIC GOALS
We have focused nearly all of our audit and investigative direct resources on our four goals:
σσ    Strengthen USDA’s ability to implement safety and security measures to protect the
      public health as well as agricultural and Departmental resources.
σσ    Reduce program vulnerabilities and strengthen program integrity in the delivery of benefits to program participants.
σσ    Support USDA in implementing its management improvement initiatives.
σσ    Increase the efficiency and effectiveness with which USDA manages and exercises stewardship over natural resources.
                                             To learn more about OIG, visit our website at
                                                     www.usda.gov/oig/home.htm

                                  How To Report Suspected Wrongdoing in USDA Programs

                                                            Fraud, Waste and Abuse
                                                       In Washington, DC 202-690-1622
                                                           Outside DC 800-424-9121
                                                        TDD (Call Collect) 202-690-1202

		 Office of
	Inspector
                                                    Bribes or Gratuities
                                      202-720-7257 (Monday–Friday, 9:00 a.m.– 3 p.m. ET)
                                                  888-620-4185 (24 hours)




			 General
     The U.S. Department of Agriculture (USDA) prohibits discrimination in all its programs and activities on the basis of race, color, national origin, age, disability, and
     where applicable, sex, marital status, familial status, parental status, religion, sexual orientation, genetic information, political beliefs, reprisal, or because all or
     part of an individual’s income is derived from any public assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
     alternative means for communication of program information (Braille, large print, audiotape, etc.) should contact USDA’s TARGET Center at (202) 720–2600 (voice
     and TDD). To file a complaint of discrimination, write to USDA, Director, Office of Civil Rights, 1400 Independence Avenue, S.W., Washington, D.C. 20250–9410, or call
     (800) 795–3272 (voice) or (202) 720–6382 (TDD). USDA is an equal opportunity provider and employer.




 4   USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2009 1st Half
